<html>
<title> - THE SITUATION IN IRAQ AND AFGHANISTAN</title>
<body><pre>[Senate Hearing 110-716]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-716
 
                 THE SITUATION IN IRAQ AND AFGHANISTAN

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 23, 2008

                               __________

         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
47-117 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 SAXBY CHAMBLISS, Georgia
E. BENJAMIN NELSON, Nebraska         LINDSEY O. GRAHAM, South Carolina
EVAN BAYH, Indiana                   ELIZABETH DOLE, North Carolina
HILLARY RODHAM CLINTON, New York     JOHN CORNYN, Texas
MARK L. PRYOR, Arkansas              JOHN THUNE, South Dakota
JIM WEBB, Virginia                   MEL MARTINEZ, Florida
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi

                   Richard D. DeBobes, Staff Director

              Michael V. Kostiw, Republican Staff Director

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                 The Situation in Iraq and Afghanistan

                           september 23, 2008

                                                                   Page

Gates, Hon. Robert M., Secretary of Defense......................     8
Cartwright, Gen. James E., USMC, Vice Chairman, Joint Chiefs of 
  Staff..........................................................    15

                                 (iii)


                 THE SITUATION IN IRAQ AND AFGHANISTAN

                              ----------                              


                      TUESDAY, SEPTEMBER 23, 2008

                                        U.S. Senate
                                Committee on Armed Services
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Bill 
Nelson, E. Benjamin Nelson, Pryor, Webb, McCaskill, Warner, 
Inhofe, Sessions, Collins, Chambliss, and Thune.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Cindy Pearson, assistant chief clerk and security 
manager.
    Majority staff members present: Thomas K. McConnell, 
professional staff member; William G.P. Monahan, counsel; and 
William K. Sutey, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; David G. Collins, research assistant; Paul C. 
Hutton IV, professional staff member; Lynn F. Rusten, 
professional staff member; and Robert M. Soofer, professional 
staff member.
    Staff assistants present: Kevin A. Cronin, Jessica L. 
Kingston, and Ali Z. Pasha.
    Committee members' assistants present: Jay Maroney, 
assistant to Senator Kennedy; Vance Serchuk, assistant to 
Senator Lieberman; Elizabeth King, assistant to Senator Reed; 
Christopher Caple and Caroline Tess, assistants to Senator Bill 
Nelson; Andrew R. Vanlandingham, assistant to Senator Ben 
Nelson; Jon Davey, assistant to Senator Bayh; Andrew Shapiro, 
assistant to Senator Clinton; M. Bradford Foley, assistant to 
Senator Pryor; Gordon Peterson, assistant to Senator Webb; 
Stephen C. Hedger, assistant to Senator McCaskill; Sandra Luff, 
assistant to Senator Warner; Anthony J. Lazarski, assistant to 
Senator Inhofe; Lenwood Landrum, assistant to Senator Sessions; 
Mark J. Winter, assistant to Senator Collins; Clyde A. Taylor 
IV, assistant to Senator Chambliss; David Hanks, assistant to 
Senator Cornyn; Jason Van Beek, assistant to Senator Thune; and 
David Brown, Brian W. Walsh, and Erskine W. Wells III, 
assistants to Senator Martinez.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Today the committee receives testimony from 
Secretary of Defense Robert Gates and General James Cartwright, 
the Vice Chairman of the Joint Chiefs of Staff, on the 
situation in Iraq and Afghanistan. A warm welcome to both of 
you. This may be the final appearance of Secretary Gates before 
the committee and on behalf of all the members of the 
committee, Mr. Secretary, I want to extend our sincere 
gratitude to you for your cooperation, for your open-minded 
attitude, and your thoughtful approach to the duties that you 
have as Secretary of Defense.
    Secretary Gates, the committee will be interested in your 
observations from your visit to Afghanistan and Iraq earlier 
this month. That visit included attending the change of command 
of Multi-National Forces-Iraq from General David Petraeus to 
General Raymond Odierno. We owe these two distinguished 
generals our appreciation for their dedication and their 
willingness to continue to serve our Nation. General Petraeus 
will take over as Commander of U.S. Central Command (CENTCOM), 
where his responsibilities will entail a broad perspective to 
balance the need of the conflicts in Iraq and Afghanistan, as 
well as the threats elsewhere in the region.
    Since we last met, the President has announced a small 
troop reduction through next February or March and an open-
ended presence beyond that. For some of us, that small 
reduction and open-endedness fails to put adequate pressure on 
the Iraqis to work out their political differences, which--and 
there is pretty much a consensus on this point--is the only 
hope of ending the underlying conflict.
    The surge helped achieve a lower level of violence. It has 
not yet achieved its stated purpose, political accommodation 
among Iraq's leaders. The Iraqi Government has yet to adopt 
urgently needed legislation, including laws for the long-
promised and repeatedly delayed provincial elections, 
hydrocarbon revenue-sharing, and constitutional amendments, 
including regarding the status of the increasingly volatile 
Kirkuk region.
    In addition, the Iraqi Government continues to fail to pay 
for items that it should pay for. The Iraqis' failure to pay 
for such items continues despite Iraq's budget surplus, which 
is projected to approach $80 billion as a result of the soaring 
oil revenues, including money that comes from Americans paying 
high prices at the pump.
    Our open-ended commitment in Iraq, which is an invitation 
to continued Iraqi dawdling and dependency, carries many costs: 
more American lives and wounded, and $10 billion, $11 billion a 
month beyond the $600 billion already spent.
    One additional cost is the continuing shortage of troops 
needed to address the deteriorating security situation in 
Afghanistan, the central front in the war on terrorist 
extremism. The security of our troops and the Afghan people has 
worsened over the past 2 years. In June more American soldiers 
were killed in Afghanistan than Iraq. Improvised explosive 
device (IED) attacks have risen sharply in Afghanistan. The 
Chairman of the Joint Chiefs, Admiral Mullen, said on September 
10, 2008, that he is ``not convinced that we're winning . . . 
in Afghanistan. I'm convinced we can.'' He added, ``Frankly, 
we're running out of time.''
    According to Admiral Mullen, the 4,500 troops for 
Afghanistan announced by President Bush on September 9 don't 
``adequately meet'' the demands and needs of our commander in 
Afghanistan. General David McKiernan, Commander of the North 
Atlantic Treaty Organization (NATO) International Security 
Assistance Force (ISAF) has said that, even with those 
additional troops, he remains short by at least 3 more combat 
brigades, or potentially more than 20,000 troops once support 
units are included. ISAF is also short on helicopters, 
intelligence, surveillance, and reconnaissance (ISR) assets, 
and training teams for the Afghan National Army (ANA) and the 
Afghan National Police (ANP).
    Major General Jeffrey Schloesser, the U.S. Commander of 
Regional Command East, the Afghanistan region that borders 
Pakistan's tribal areas, has said ``there is no doubt that we 
definitely need more troops and some more resources.'' It is 
critical for the security situation that the training of these 
Afghan security forces be speeded up. Many more are needed to 
secure the border with Pakistan as well as for internal 
security.
    The shortfall in troops in Afghanistan is also exacting a 
price on the Afghan people. General McKiernan said that because 
of shortages of troops on the ground the coalition forces are 
more dependent on air power, which has produced in turn an 
increase in civilian casualties. Afghan anger and frustration 
over civilian deaths threatens to undo the goodwill that our 
forces are building in Afghan communities.
    We need to also do something that Secretary Gates has 
spoken of so eloquently: apply effectively America's 
instruments of ``soft power'' to the mission in Afghanistan--
our economic, political, and development capabilities. In May, 
I visited a village near Bagram, Afghanistan, where three local 
community development councils, from three villages had pooled 
funds provided through the Afghanistan National Solidarity 
Program to build a school for their children. The polished new 
primary school was a magnificent sight, a very, very modest 
structure though it was. The elders that I met were proud to 
have given their sons and daughters a place to learn and an 
opportunity for a better life, and they told me that the 
extremists wouldn't dare attack the school because the people 
and communities would fight to the death to defend it.
    On the Pakistan side of the border, it is unacceptable that 
extremist elements are finding safe haven in Pakistan's tribal 
regions and staging cross-border attacks from there on U.S. and 
coalition forces in Afghanistan. The Pakistan Government keeps 
promising to act to do more to eliminate these safe havens. In 
the meantime, it plays into the hands of the extremists and 
promotes their recruitment when Pakistan's media focuses on our 
incursions as the cause of the deaths of innocent civilians and 
the destruction of their homes.
    Newly-elected Pakistan President Asif Zardari warned 
recently that Pakistan ``will not tolerate the violation of our 
sovereignty and territorial integrity by any power in the name 
of combating terrorism.'' We must be careful not to undermine 
Pakistan's cooperation with our counterinsurgency efforts and 
unwittingly cause a spurt in the recruitment of extremists 
through actions of ours that are viewed widely throughout 
Pakistan as being disdainful of Pakistan's sovereignty, 
particularly when the Pakistan Government publicly condemns our 
efforts.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman.
    I'd like to start my remarks this morning with a quote by 
Thomas Jefferson which reflects on my high esteem for the 
Secretary, the work he has done and will continue to do, but as 
you look at the terminal phase of this current step in your 
career. Jefferson said: ``Our duty to ourselves, to posterity, 
to mankind call on us by every motive which is sacred or 
honorable to watch over the safety of our beloved country 
during the troubles which agitate and convulse the world and to 
sacrifice to that all personal and local considerations.''
    Mr. Secretary, you have made a considerable sacrifice by 
returning to public office. I think I've had the privilege of 
introducing you before the Senate for four public offices, 
including this one. You've done that, you've made that 
sacrifice, together with your family. I've had the opportunity 
to work with every Secretary of Defense since Melvin Laird in 
1969 and your performance of service matches the finest of all 
of them. Your decisive actions were cogently formulated. You 
never shot from the hip. Your voice was always firm, modest, 
and reassuring. You understood that in these difficult times we 
must forge broader bipartisan support. You have that bipartisan 
support on this committee, unlike I've ever seen for a previous 
secretary.
    Your character and integrity earned utmost admiration and 
respect, not only here in Congress, but around the Nation.
    So we thank you, sir. But there's much to be done, as the 
distinguished chairman stated.
    I'd like to start off and again welcome you and General 
Cartwright. It's reassuring for Secretary Gates and I as we 
step down in the coming months that you and individuals like 
you will continue to carry on. It's very important to have that 
continuity.
    I want to start, of course, by recognizing the courage and 
commitment and valor of the fighting men and women in uniform 
who served and are currently serving in Iraq and Afghanistan 
and other parts of the world. They along with their families 
have borne the risks, the hardships, and the sacrifices that 
make possible the freedom that we enjoy today. The United 
States is so fortunate to have great men and women who continue 
to volunteer--and I repeat, volunteer--to serve in uniform.
    I also wish to acknowledge the courage and valor of the 
Iraqi and Afghan security forces and the important 
contributions of our coalition partners in NATO.
    Further, I'd be remiss if I did not acknowledge the vital 
role played by the civilian employees of the Federal 
departments and agencies of the U.S. Government who have 
deployed to Iraq and Afghanistan.
    One of the hard-earned and well-known lessons of these wars 
was the weakness of the interagency process. You've 
strengthened that, Mr. Secretary, through your tireless 
efforts. The weakness of that process, however, has to be 
further strengthened to make it work. We've come a long way and 
created new tools for interagency coordination that were all 
born out of necessity. They must be expanded and 
institutionalized.
    With regards to Iraq, I commend the concept of the surge. I 
commend most heartily the courage of the forces, U.S. and 
Iraqi, that carried out this operation that today by any fair, 
pragmatic judgment has been a success. But against that 
success, unfortunately, is not matched a significant 
advancement in political reconciliation among the Iraqi 
Government. There we had planned the surge--I went back last 
night and reread what the President said in January and the 
concept was to provide a security arrangement within which 
political reconciliation could advance, and by advance I mean 
take major strides. In my judgment that simply has not 
happened. But it must happen. Let's hope the forthcoming 
elections are not further delayed.
    Early this month the President said he'd bring home 3,400 
combat forces and another Army brigade next year. I share with 
my colleague the chairman that we had hoped here in Congress, 
indeed by comments given by yourself and others earlier this 
year, that those force reductions would have been larger. I do 
hope that we can look to the future for further and larger 
reductions.
    These reductions were made possible, less so by the meager 
political reconciliation, but among the Iraqi people down at 
the grassroots level and their efforts, and most importantly 
the accomplishments made by the courage of our forces in 
bringing about a reduction in the casualties and the incidents 
and a whole lot of other statistics that are very positive as 
it relates to the war.
    I join the chairman--he mentioned it about the Iraqi funds 
and their use. Unfortunately, during the floor consideration of 
the Senate Armed Services authorization bill certain procedural 
steps were taken to preclude a full exploration of the issue of 
Iraqi funds and the extent to which they are now being put 
forward to pay the costs of the war and particularly the 
reconstruction costs.
    I had an amendment. I think the chairman had an amendment. 
As a matter of fact, I will ask to have my amendment, which did 
not make it into the bill because of procedural reasons, put 
into the record at the appopriate location.
    But I drew attention in my amendment to the very 
significant amount of military construction being asked for in 
the President's budget for installations, and it seems to me, 
with the hopes and expectation we're drawing down, with the 
extensive framework of installations we have in place, that we 
need the clearest of justification from the administration for 
future expenditures of literally billions of dollars on further 
construction in that country.
    I also close by saying in testimony before the House Armed 
Services Committee earlier this month Admiral Mullen said: 
``Absent a broader international and interagency approach to 
the problems in Afghanistan, it is my professional opinion that 
no amount of troops and no amount of time can ever achieve all 
the objectives we seek in Afghanistan. Frankly, we're running 
out of time.''
    You stated last week: ``We are taking a close look at our 
strategy in Afghanistan and I don't know whether the results of 
that will be a significant change in strategy or just some 
adjustments.''
    This is a very important opportunity this morning, and I 
commend the chairman for calling this hearing, to bring to 
Congress the framework of the current status in Afghanistan as 
well as Iraq such that we can go back home to our constituents 
in the coming months and try and do the best we can to keep the 
public informed and, if I may say, to the extent possible 
supportive. Support for the men and women of the Armed Forces 
carrying out the orders of the Commander in Chief is 
fundamental. It is essential. It's the duty of Congress to do 
what we can to maintain that support for those troops and these 
families in the face of realistic appraisals by yourself, Mr. 
Secretary, the chairman and others about the challenges that 
face us both in Iraq and in Afghanistan.
    Likewise, you have it in your statement but we ask you 
today to give us a current assessment of the NATO commitment to 
the missions, including the future of NATO enlargement as it 
relates to several states, particularly the ones that have 
recently been in a combative relationship with Russia. 
Certainly the Georgia-Russia situation was a tragic chapter in 
current history and must be avoided for the future.
    Lastly, I close with a subject that I've raised repeatedly 
throughout hearings here and that is the continued, almost 
unabated trade of narcotics in Afghanistan, which trade yields 
funds which go directly into the hands of the insurgents to buy 
weapons to fight our own forces and those of NATO and our 
allies.
    So, Mr. Secretary, I close once again by saying this 
country is fortunate to have you in your position, as well as 
General Cartwright, and we thank you for your public service.
    I'd like to give a minute to my colleague, Senator Inhofe, 
who has to depart.
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner

    Mr. Chairman, thank you, and I thank you for holding this important 
hearing on the way forward in Iraq and Afghanistan.
    I join you in welcoming Secretary Gates and General Cartwright here 
today.
    It is only appropriate to start by recognizing the commitment, 
courage, and valor of our fighting men and women in uniform who have 
served, or are currently serving in Iraq and Afghanistan. They, along 
with their families, have borne the risks, hardships, and sacrifices, 
so valiantly and selflessly.
    The United States is so fortunate to have great men and women who 
continue to volunteer to serve in uniform.
    I would also like to acknowledge the courage and valor of Iraqi and 
Afghan security forces and the important contributions of our coalition 
partners and North Atlantic Treaty Organization (NATO) allies.
    Further, I would be remiss if I did not acknowledge the vital role 
played by the civilian employees of the Federal departments and 
agencies of the U.S. Government who have deployed to Iraq and 
Afghanistan.
    One of the hard-learned and well-known lessons of these wars was 
weakness of the interagency process. The weaknesses of that process, 
however, do not reflect on the strength and exceptional service of 
those civilian Federal employees who deployed in harm's way.
    We have come a long way and have created new tools for interagency 
coordination that were all born out of necessity. They must be expanded 
and institutionalized. The next administration must make the retooling 
of the interagency process a high priority.
    With regards to Iraq, I commend the concept of the success of the 
surge and the courage of all the military forces that executed 
successfully the military operations.
    Violence is now down to its lowest point since the spring of 2004. 
Civilian deaths are down, sectarian killings are down, suicide bombings 
are down, the number of improvised explosive device attacks is down, 
and normal life is returning to many communities across the country.
    These reduced levels of violence in Iraq have been sustained for 
several months and as General Petraeus and Ambassador Crocker have 
reported that there now appears to be a ``degree of durability'' to the 
gains.
    Earlier this month, President Bush announced that we will bring 
home about 3,400 combat support forces in the next few months, plus a 
Marine battalion that is now serving in Anbar Province, and, in 
February 2009, another Army combat brigade will come home.
    The courageous accomplishments of the troops made possible these 
reductions in forces.
    I remain concerned about the disappointing pace of political 
reconciliation in Iraq that was a fundamental part of the surge 
concept. The Iraqi Government must come to agreement on holding 
provincial elections this year.
    The committee will likely ask, as we have in the past, about the 
expenditure of Iraqi funds on reconstruction projects; the state of the 
Iraqi security forces; and progress on the Strategic Framework 
Agreement and the Status of Forces Agreement with the Government of 
Iraq.
    I request consent to place a copy of an amendment I filed on the 
Defense Authorization Bill regarding the funding of infrastructure 
progress in Iraq into the record.
    Now turning to Afghanistan where the security trends are not nearly 
as positive. The enemy we are facing in Afghanistan is growing more 
militarily capable and possibly more collaborative. This complex 
amalgam of insurgent groups is using safe havens in Pakistan to their 
advantage and the political situation in Pakistan further complicates 
this situation. The situation along the Afghan-Pakistan border and 
efforts to work with the Government of Pakistan to do more against 
extremists will be of high interest to the committee, especially after 
the hotel bombing in Islamabad that was reportedly planned in the 
tribal regions of western Pakistan.
    In testimony before the House Armed Services Committee earlier this 
month, Admiral Mullen said: ``absent a broader international and 
interagency approach to the problems in Afghanistan, it is my 
professional opinion that no amount of troops in no amount of time can 
ever achieve all the objectives we seek in Afghanistan. Frankly, we're 
running out of time.'' Mr. Secretary, you should be prepared to comment 
on that very frank and candid observation.
    Secretary Gates, last week you said: ``We are taking a close look 
at our strategy in Afghanistan and I don't know whether the results of 
that will be a significant change in strategy or just some 
adjustments.'' The committee will want to hear a report about progress 
on that review.
    I remain concerned about some NATO allies' commitment to the fight 
in Afghanistan.
    I clearly remember your testimony before the committee last 
February when you said: ``I worry a great deal about the alliance 
evolving into a two-tiered alliance in which you have some allies 
willing to fight and die to protect people's security and others who 
are not.''
    You will be asked to give us a current assessment of NATO's 
commitment to the mission and, in light of the Georgia-Russia 
situation, and, whether or not, you think that this will make it more 
difficult to keep the NATO members committed in Afghanistan, let alone 
ask them to do more?
    I have often pressed about the need to address drug trafficking in 
Afghanistan. The profits from that illicit trade are being used to 
purchase arms for the insurgents which are used against United States, 
NATO, Afghan, and other partnered forces. I continue to call this 
unconscionable. You should be prepared to address the current impact of 
narco-economy on the insurgency and state of coalition and Afghan 
counternarcotics efforts?
    Secretary Gates, this is very likely your last appearance before 
this committee as the 22nd Secretary of Defense. You have had a 
remarkable career in public service and in this office.
    In 1809, Thomas Jefferson wrote: ``Our duty to ourselves, to 
posterity, and to mankind, call on us by every motive which is sacred 
or honorable, to watch over the safety of our beloved country during 
the troubles which agitate and convulse the world, and to sacrifice to 
that all personal and local considerations.'' Secretary Gates, you have 
done that.
    I have had the opportunity to work closely with every Secretary of 
Defense since Melvin Laird, all were outstanding patriots.
    Your recall to service, during these very trying times, was a 
selfless act of duty and patriotism. Your service in this office was 
exceptional.
    Your decisive actions were cogently formulated. Your voice was 
always firm, modest, and reassuring.
    You understood that at these difficult times you must forge broader 
bipartisan support.
    Your character and integrity earned utmost admiration and respect 
in this body, around the Nation, and the world--but most importantly 
with the men and women in uniform.
    I am confident that my colleagues join me in thanking you for your 
service and for your commitment to the men and women of our Armed 
Forces.

    Senator Warner. Senator Inhofe.
    Senator Inhofe. Not even a minute, Mr. Chairman.
    Chairman Levin. Senator Inhofe.
    Senator Inhofe. I just wanted to explain; Chairman Boxer 
has called a hearing where I'm the ranking member, that 
requires my attendance in and out of this. I hope, Mr. 
Chairman, though, that we'll be able to get around to the 
confirmations of General Fraser and Mr. Donley if at all 
possible.
    Thank you.
    Chairman Levin. Thank you, Senator Inhofe.
    Secretary Gates, again a very warm, appreciative welcome to 
you, and General Cartwright, of course, but especially to you 
for your service, your demeanor, your willingness to consider 
ideas coming from various sources. It's really been a very 
important chapter that you've written in the very short time 
that you've had. So we welcome you.

    STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE

    Secretary Gates. Thank you, Mr. Chairman, Senator Warner. 
Thank you both for your very kind comments. I would note that 
it was 42 years and 1 month ago that I first took the oath 
entering government service.
    I want to thank you and the committee for inviting us to 
give you an update on the wars in Iraq and Afghanistan. I'd 
like to express at the outset gratitude to this committee and 
to Congress for passing legislation to enhance the benefits of 
the GI Bill. The Department is very pleased with the outcome 
and I can tell you that our men and women in uniform are deeply 
appreciative. Of course, this is just one example of the many 
ways in which you have supported our troops over past years, 
and on behalf of all of them I thank you.
    But I'd also like to take this occasion, just echoing 
Senator Inhofe, to encourage the committee to act this week on 
the nominations of Mike Donley to be Secretary of the Air Force 
and General William Fraser III to be the Service's Vice Chief 
of Staff. The Air Force is undergoing a critical period of 
transition and renewal and it's vitally important that the full 
leadership team is in place and confirmed.
    Chairman Levin. If I could just interrupt you right there, 
we will make every effort to get those confirmations completed 
this week.
    Secretary Gates. Thank you, sir.
    I visited last week with our troops, commanders, and local 
partners in both countries. In Iraq I was honored to pay 
tribute to our outgoing commander, General David Petraeus, as 
well as Ambassador Ryan Crocker, to whom, I might add, I gave 
the Department of Defense's (DOD) highest civilian award. 
Beyond their own brilliant individual performances, the 
Petraeus-Crocker team was a superb model of military-civilian 
partnership, one that should be studied and emulated for years 
to come.
    Earlier this month, General Petraeus made his 
recommendations on the way forward in Iraq. Separate 
recommendations were submitted by the Commander of the ISAF in 
Afghanistan, the Commander of CENTCOM, the Service Chiefs, and 
the chairman. Although each viewed the challenges from a 
different perspective, weighing different factors, all once 
again arrived at similar recommendations.
    They've already withdrawn the five Army Brigade Combat 
Teams (BCTs), two Marine Battalions, and a Marine Expeditionary 
Unit that were sent to Iraq as part of the surge. The President 
announced earlier this month that approximately 8,000 troops 
will be withdrawn from Iraq in February without being replaced. 
The withdrawal of approximately 3,400 noncombat forces, 
including aviation personnel, explosive ordnance teams, combat 
and construction engineers, military police, and logistics 
support teams, began this month, will continue through this 
fall and winter, and be completed in January. In addition, a 
Marine battalion stationed in Anbar will return in November and 
another Army BCT will return by early February.
    The bottom line point is that the drawdowns associated with 
the President's announcements of 8,000 drawing down do not wait 
until January or February, but in fact have begun. The 
continuing drawdown is possible because of the success in 
reducing violence and building Iraqi security capacity.
    Even with fewer U.S. troops in Iraq, the positive trends of 
the last year have held and in some cases steadily continued in 
the right direction. Our casualties have been greatly reduced, 
even though one is still too many, and overall violence is down 
more than 80 percent. Recent turnover of Anbar Province to 
Iraqi provincial control, the 11th of 18 provinces to be turned 
over, highlights how much the situation has improved.
    My submitted testimony has more details on some of the 
other positive indicators, as well as the serious challenges 
that remain. In short, Iraqi security forces have made great 
strides, political progress has been incremental but 
significant, and other nations of the region are increasingly 
engaged with Iraq.
    That said, there are still problems, such as the prospect 
of violence in the lead-up to elections, worrisome reports 
about sectarian efforts to slow the assimilation of the Sons of 
Iraq into the Iraqi security forces, Iranian influence, the 
very real threat that al Qaeda continues to pose, and the 
possibility that Jaish al-Mahdi could return.
    Before moving on to Afghanistan, I would like to make a few 
general comments and put the successes of the past year and a 
half in some context. The President has called our reduction in 
troop numbers a return on success. I, of course agree, but 
would expand on that. The changes on the ground and in our 
posture are reflective of a fundamental change in the nature of 
the conflict. In past testimony I have cautioned that no matter 
what you think about the origins of the war on Iraq, we must 
get the end-game there right.
    I believe we have now entered that end-game, and our 
decisions today and in the months ahead will be critical to 
regional stability and our national security interests for 
years to come.
    When I entered this office, the main concern was to halt 
and reverse the spiraling violence in order to prevent a 
strategic calamity for the United States and allow the Iraqis 
to make progress on the political, economic, and security 
fronts. Although we all have criticisms of the Iraqi 
Government, there can be no doubt that the situation is much 
different and better than it was in early 2007.
    The situation, however, remains fragile. Disagreements in 
our country still exist over the speed of the drawdowns and 
whether we should adhere to hard and fast time lines or more 
flexible time horizons. I worry that the great progress our 
troops and the Iraqis have made has the potential to override 
the measure of caution born of uncertainty. Our military 
commanders do not yet believe our gains are necessarily 
enduring and they believe that there are still many challenges 
and potentials for reversals in the future.
    The continuing but carefully modulated reductions the 
President has ordered represent, I believe, not only the right 
direction, but also the right course of action, especially 
considering planned and unplanned redeployments by some of our 
coalition partners. Our planned reductions are an acceptable 
risk today, but also provide for unforeseen circumstances in 
the future. They also preserve a broad range of options for the 
next Commander in Chief, who will make his own assessment after 
taking office in January.
    As we proceed deeper into the end game, I would urge our 
Nation's leaders to implement strategies that, while reducing 
our presence in Iraq steadily, are cautious and flexible and 
take into account the advice of our senior commanders and 
military leaders. I would also urge our leaders to keep in mind 
that we should expect to be involved in Iraq for years to come, 
though in changing and increasingly limited ways.
    Let me shift briefly to Afghanistan. There we are working 
with the Afghans and coalition partners to counter a classic 
extremist insurgency, fueled by ideology, poppy, poverty, 
crime, and corruption. During my recent visit to Afghanistan I 
reemphasized our commitment to success there, a commitment that 
includes increasing the size of our forces in country as well 
as the size and capabilities of the Afghan security forces.
    I also expressed my regret and the regret of the American 
people for the civilians killed and injured in coalition and 
NATO air strikes. While no other nation in history has done 
more to protect the innocent, I pledge that we must and will do 
better.
    My submitted statement details some positive developments, 
such as the increased commitment by our international partners 
on both the military and nonmilitary fronts and the 
announcement earlier this month to double the size of the 
Afghan army, which has demonstrated its effectiveness on the 
battlefield. The statement also outlines in more detail some of 
the logistical challenges we still face and are working to 
improve, such as ISAF shortfalls and coordination problems 
between military forces and civilian elements, particularly the 
Provincial Reconstruction Teams (PRTs).
    Persistent and increasing violence, resulting from an 
organized insurgency, is of course our greatest concern. The 
President has decided to send more troops to Afghanistan in 
response to resurgent extremism and violence reflecting greater 
ambition, sophistication, and coordination.
    We did not get to this point overnight, so a little 
historical context is useful. The mission in Afghanistan has 
evolved over the years since 2002 in both positive and negative 
ways. Reported insurgent activities and attacks began 
increasing steadily, particularly in the spring of 2006. This 
has been the result of increased insurgent activity, insurgent 
safe havens in Pakistan, and reduced military pressure on that 
side of the border, as well as more international and Afghan 
troops on the battlefield, troops that are increasingly in 
contact with the enemy.
    In response to increased violence and the insurgent 
activity in 2006, in January 2007 I extended the deployment of 
an Army brigade and added another brigade. This last spring, 
the United States deployed 3,500 marines and all the number of 
American troops in the country increased from less than 21,000 
2 years ago to more than 31,000 today.
    At the NATO summit in Bucharest in April, ISAF allies and 
partners restated their own commitment to Afghanistan. France 
has added 700 troops in eastern Afghanistan. This fall, Germany 
will seek to increase its troop ceiling from 3,500 to 4,500. 
Poland is also increasing its troops by 400. The number of 
coalition forces, including NATO troops, has increased from 
about 20,000 to nearly 31,000, and it appears that this trend 
will continue as other allies such as the United Kingdom add 
more troops.
    In Bucharest in April the President pledged the United 
States would send more troops to Afghanistan in 2009. 
Accordingly, we will increase U.S. troop levels in Afghanistan 
by deploying a Marine battalion this November and in January an 
Army BCT, both units that had been slated for Iraq.
    As in Iraq, however, additional forces alone will not solve 
the problem. Security is just one aspect of the campaign 
alongside development and governance. We must maintain 
momentum, keep the international community engaged, and develop 
the capacity of the Afghan Government. The entirety of the NATO 
alliance, the European Union, nongovernmental organizations 
(NGOs), and other groups, our full military and civilian 
capabilities must be on the same page and working toward the 
same goal with the Afghan Government.
    I am still not satisfied with the level of coordination and 
collaboration among the numerous partners and many moving parts 
associated with civilian reconstruction and development and 
building the capacity of the Afghan Government.
    We do face committed enemies, which brings me finally to 
the challenge of the tribal areas of Pakistan. As in Iraq, 
until the insurgency is deprived of safe havens insecurity and 
violence will persist. We are working with Pakistan in a number 
of areas and I do believe that Islamabad appreciates the 
magnitude of the threat from the tribal areas, particularly 
considering the uptick in suicide bombings directed at 
Pakistani targets, most recently the Marriott Hotel in 
Islamabad.
    During this time of political turmoil in Pakistan, it is 
especially crucial that we maintain a strong and positive 
relationship with the government since any deterioration could 
be a setback for both Pakistan and Afghanistan. The war on 
terror started in this region. It must end there.
    Let me close by again thanking all of the members of the 
committee and Congress as a whole for their support for our men 
and women in uniform. I have noted on a number of occasions how 
positive the public response has been to those who have 
volunteered to serve. Our Nation's leaders across the entire 
political spectrum have led the way in honoring our service men 
and women, not just by providing the funds they need for their 
mission, but also by publicly declaring their support and their 
admiration for our troops.
    I thank you for these sentiments and I thank you for your 
leadership during these challenging times. Thank you.
    [The prepared statement of Secretary Gates follows:]

               Prepared Statement by Dr. Robert M. Gates

    Mr. Chairman, Senator Warner, members of the committee: Thank you 
for inviting me to give you an update on the wars in Iraq and 
Afghanistan. I would also express gratitude to Congress for passing 
legislation to enhance the benefits of the GI Bill. The Department is 
very pleased with the outcome, and I can tell you that our men and 
women in uniform are deeply appreciative. Of course, this is just one 
example of the many ways in which you have supported our troops these 
past years. On behalf of all of them, I thank you.
    I would also like to take this occasion to encourage this committee 
to act as soon as possible on the nominations of Mike Donley to be the 
Secretary of the Air Force, and General William Fraser III to be the 
Service's Vice Chief of Staff. The Air Force is undergoing a critical 
period of transition and renewal, and it is vitally important that the 
full leadership team is in place and confirmed.
    Last week I visited with our troops, commanders, and local partners 
in both countries. In Iraq, I was honored to pay tribute to our 
outgoing commander, General David Petraeus, as well as Ambassador Ryan 
Crocker. Beyond their own brilliant individual performances, the 
Petraeus-Crocker team was a superb model of military-civilian 
partnership, one that should be studied and emulated for years to come.
    Earlier this month, General Petraeus made his recommendations on 
the way forward in Iraq. Separate recommendations were submitted by the 
Commander of the International Security Assistance Force in 
Afghanistan, the Commander of Central Command, the Service Chiefs, and 
the Chairman. Although each viewed the challenges from a different 
perspective, weighing different factors, all once again arrived at 
similar recommendations.
    We have already withdrawn the five Army brigade combat teams, two 
Marine battalions, and the Marine expeditionary unit that were sent to 
Iraq as part of the surge. The President announced earlier this month 
that approximately 8,000 U.S. troops will be withdrawn from Iraq by 
February without being replaced.
    The withdrawal of approximately 3,400 noncombat forces--including 
aviation personnel, explosive ordnance teams, combat and construction 
engineers, military police, and logistics support teams--began this 
month, continues through the fall and winter, and finishes in January. 
In addition, a Marine battalion stationed in Anbar will return in 
November, and another Army BCT will return by early February.
    This continuing drawdown is possible because of the success 
achieved in reducing violence and building Iraqi security capacity. 
Even with fewer U.S. troops in Iraq, the positive trends of the last 
year have thus far held--and in some cases steadily continued in the 
right direction. U.S. troop casualties have been greatly reduced--
though even one is still too many, and overall violence is down more 
than 80 percent. The recent turnover of Anbar province to Iraqi 
provincial control--the 11th of 18 provinces to be turned over--
highlights how much the situation has improved.
    There are other positive indicators:

        <bullet> The Iraqi Army has planned and executed operations in 
        Amarah, Baghdad, Basrah, Diyala, and Mosul--with encouraging 
        results. Seventy percent of more than 160 Iraqi battalions are 
        now in the lead. Their confidence level has grown with each 
        passing month, as has ours in their ability to get the job 
        done.
        <bullet> Overall, political progress has been incremental but 
        significant. The Iraqi parliament has passed key legislation 
        this year. The recent return of the Sunni Iraqi Accord Front 
        party to ministerial positions was a welcome sign of 
        reengagement by Sunnis at the national level.

    With the exception of Iran, we have seen an increasing willingness 
by neighboring countries to help engage with and stabilize Iraq. 
Bahrain, Jordan, Kuwait, the United Arab Emirates and even Syria have 
announced that they will send ambassadors to Baghdad. Jordan's king and 
Lebanon's prime minister both visited Iraq last month.
    The International Monetary Fund estimates that the Iraqi economy 
will have 8-8\1/2\ percent real growth this year.

    Despite all this, very serious challenges remain:

        <bullet> Political progress remains too slow--as seen recently 
        by the inability of the parliament to pass an election law. 
        This means that provincial elections, which we believe will 
        continue and enhance the process of reconciliation, will in all 
        likelihood be pushed back until at least December. Elections 
        also mean the possibility of increased violence.
        <bullet> There have been some worrisome reports about sectarian 
        efforts to either disrupt or slow the process of assimilation 
        of the Sons of Iraq into the Iraqi security forces. It is a 
        reminder that sectarian tensions still exist and have the 
        potential to undo recent progress at the local and national 
        level.
        <bullet> Despite Iran's pledges last year to stop providing 
        weapons, training, and funding to armed militias, evidence 
        suggests that this support continues.
        <bullet> Iraqi security forces still lack many key 
        capabilities. Many of their operations would simply not have 
        been possible without coalition enablers. That will remain the 
        case for some time to come.
        <bullet> The threat from al Qaeda and other militant groups has 
        receded, but is still very real. In the last few months, we 
        have seen a number of suicide attacks--as well as tactical 
        shifts, such as the increased use of women. This is a reminder 
        that al Qaeda still retains the ability to inflict mass 
        casualties, the operational capacity to assess and change 
        strategies, and is still trying to sow chaos and reassert 
        itself.
        <bullet> Similarly, there is the possibility that Jaish al-
        Mahdi could return.

    On that note, I would like to make a few broader comments and put 
the successes of the last year and a half into some context.
    The President has called our reduction in troop numbers a ``return 
on success.'' I of course agree, but I might expand further. The 
changes on the ground and in our posture are reflective of a 
fundamental change in the nature of the conflict. In past testimony, I 
have cautioned that, no matter what you think about the origins of the 
war in Iraq, we must get the endgame there right. I believe we have now 
entered that endgame--and our decisions today and in the months ahead 
will be critical to regional stability and our national security 
interests in the next few years.
    When I entered office, the main concern was to halt and reverse the 
spiraling violence in order to prevent a strategic calamity for the 
United States and allow the Iraqis to make progress on the political, 
economic, and security fronts. Although we all have criticisms of the 
Iraqi Government, there can be no doubt that the situation is much 
different--and far better--than it was in early 2007. The situation, 
however, remains fragile.
    Disagreements in our country still exist over the speed of the 
drawdowns and whether we should adhere to hard-and-fast timelines or 
more flexible time horizons.
    I worry that the great progress our troops and the Iraqis have made 
has the potential to over-ride a measure of caution born of 
uncertainty. Our military commanders do not yet believe our gains are 
necessarily enduring--and they believe that there are still many 
challenges and the potential for reversals in the future. The 
continuing but carefully modulated reductions the President has ordered 
represent, I believe, not only the right direction but also the right 
course of action--especially considering planned and unplanned 
redeployments by some of our coalition partners. The planned reductions 
are an acceptable risk today, but also provide for unforeseen 
circumstances in the future. The reductions also preserve a broad range 
of options for the next Commander in Chief, who will make his own 
assessment after taking office in January.
    As we proceed deeper into the endgame, I would urge our Nation's 
leaders to implement strategies that, while steadily reducing our 
presence in Iraq, are cautious and flexible and take into account the 
advice of our senior commanders and military leaders. I would also urge 
our leaders to keep in mind that we should expect to be involved in 
Iraq for many years to come, although in changing and increasingly 
limited ways.
    Let me shift to Afghanistan. There we are working with the Afghans 
and coalition partners to counter a classic extremist insurgency fueled 
by ideology, poppy, poverty, crime, and corruption.
    During my recent visit to Afghanistan, I reaffirmed our commitment 
to success in that country--a commitment that includes increasing the 
size of our forces in country as well as the size and capabilities of 
the Afghan security forces. I also expressed my regret, and the regret 
of the American people, for the civilians killed and injured in 
coalition and North Atlantic Treaty Organization (NATO) airstrikes. 
While no other nation in history has done more to protect the innocent, 
I pledged that we must, and will do better.
    First, some positive developments:

        <bullet> The international coalition, led by NATO, is more 
        committed than it has ever been. We see this in increased troop 
        contributions from our partners, as well as efforts to reduce 
        some of the caveats they place on their troops. There are also 
        increased resources being devoted to nonmilitary efforts. Our 
        allies deserve credit, and I thank them for their sacrifices.
        <bullet> At the Paris Donors Conference in June, the 
        international community pledged more than $20 billion in 
        assistance to Afghanistan.
        <bullet> The United Nations appointed Ambassador Kai Eide of 
        Norway as the Special Representative of the Secretary General 
        to the U.N. Assistance Mission in Afghanistan. Ambassador Eide 
        has been empowered to play a greater role in coordinating 
        international assistance to ensure aid is distributed 
        effectively and where it is most needed.
        <bullet> The Afghan National Army is more than 65,000 strong 
        and growing. Earlier this month, the President announced an 
        initiative to double the size of the Afghan National Army over 
        the next 5 years.
        <bullet> The Afghan National Police lag behind the army, but 
        here, too, progress is being made. There are nearly 80,000 
        police assigned today. Our main challenge is increasing the 
        competence and reliability of the force, and that requires 
        large numbers of mentors and trainers. So far we have been 
        unable to fill most of what is required. Nonetheless, an 
        innovative program called Focused District Development is 
        helping build police forces capable of serving local Afghan 
        communities.

    Before addressing the increase in violence, let me mention other 
problem areas:

        <bullet> Despite increased NATO contributions, we are still 
        short in several areas. More maneuver forces are required, as 
        well as aviation assets, Provincial Reconstruction Teams 
        (PRTs), and mentors for the Afghan army. Where Allies cannot 
        provide more troops and equipment, they need to provide other 
        types of support to build Afghan capacity.
        <bullet> There remain questions about the efficacy of having 2 
        lines of command--1 for a contingent of U.S. troops training 
        and equipping Afghan forces as part of Operation Enduring 
        Freedom, and 1 for the Internation Security Assistance Force 
        (ISAF) mission, which also includes nearly 14,000 American 
        troops.
        <bullet> Coordination between PRTs and ISAF needs to be 
        improved. Civilians in PRTs report to their respective 
        capitals--which makes it difficult to synchronize PRT 
        activities with military actions. We are working with allies 
        and partners to stand up a civil-military planning cell in the 
        south to help coordinate PRTs in a more holistic fashion--both 
        locally and regionally.
        <bullet> Afghanistan's Government must improve its delivery of 
        essential services and extend its reach by reducing corruption 
        and promoting faster development and a stronger economy. Here 
        we do run up against some hard realities: Afghanistan has 
        always been a diffuse, tribal nation with few natural resources 
        and little infrastructure. To give you some idea, total annual 
        revenue for the government is approximately $700 million versus 
        tens of billions in Iraq.

    The persistent and increasing violence resulting from an organized 
insurgency is, of course, our greatest concern. With the flexibility 
provided by success in Iraq, the President has decided to send more 
troops to Afghanistan in response to resurgent extremism and violence 
reflecting greater ambition, sophistication, and coordination.
    We did not get to this point overnight, so some historical context 
is useful. The mission in Afghanistan has evolved over the years--in 
both positive and negative ways. Reported insurgent activities and 
attacks have grown over the past 2\1/2\ years. In some cases, this is a 
result of safe havens in Pakistan and reduced military pressure on that 
side of the border. In others, it is the result of more international 
and Afghan troops on the battlefield--troops that are increasingly in 
contact with the enemy.
    In response to increased violence and insurgent activity in 2006, 
in January of last year we extended the deployment of an Army brigade 
and added another brigade. This last spring, the United States deployed 
3,500 marines. In all, the number of American troops in the country 
increased from less than 21,000 2 years ago to more than 31,000 today.
    At the NATO Summit in Bucharest in April, ISAF Allies and Partners 
restated their commitment to Afghanistan. France added 700 troops in 
Eastern Afghanistan. This fall, Germany will seek to increase its troop 
ceiling from 3,500 to 4,500. Poland is also increasing its forces by 
400 troops.
    The number of coalition troops--including NATO troops--increased 
from about 20,000 to nearly 31,000. It appears that this trend will 
continue--as other allies, such as the United Kingdom, add more troops.
    Thanks to success in Iraq, we will increase U.S. troop levels in 
Afghanistan by deploying a Marine battalion this November and in 
January 2009 an Army brigade combat team--units that had been slated 
for Iraq.
    As in Iraq, however, additional forces alone will not solve the 
problem. Security is just one aspect of the campaign, alongside 
development and governance. We must maintain momentum, keep the 
international community engaged, and develop the capacity of the Afghan 
Government. The entirety of the NATO alliance, the EU, NGOs, and other 
groups--our full military and civilian capabilities--must be on the 
same page and working toward the same goal with the Afghan Government. 
I am still not satisfied with the level of coordination and 
collaboration among the numerous partners and many moving parts 
associated with civil reconstruction and development and building the 
capacity of the Afghan Government.
    We do face committed enemies, which brings me to the challenge of 
the tribal areas of Pakistan. As in Iraq, until the insurgency is 
deprived of safe-havens, insecurity and violence will persist. We must 
continue to work with the Pakistani Government to extend its authority 
in the tribal region and provide badly needed economic, medical, and 
educational assistance to Pakistani citizens there. At the same time, 
we continue to train and equip the paramilitary Frontier Corps and 
Pakistani military units so they can better secure the border area and 
carry out operations against militants.
    We also continue to encourage the Afghans and Pakistanis to work 
together to secure their common border. This effort includes the 
establishment of more Border Coordination Centers jointly manned by 
ISAF, Afghan, and Pakistani troops; following up on the 2007 Joint 
Peace Jirga; and holding routine meetings of the Tripartite Commission.
    I do believe Islamabad appreciates the magnitude of the threat from 
the tribal areas--particularly considering the uptick in suicide 
bombings directed at Pakistani targets, most recently the Marriott 
hotel in Islamabad. During this time of political turmoil in Pakistan, 
it is especially crucial that we maintain a strong and positive 
relationship with the government--since any deterioration would be a 
setback for both Pakistan and Afghanistan. The war on terror started in 
this region. It must end there.
    One final point. Last year, Admiral Mullen noted that in 
Afghanistan we do what we can--while in Iraq, we do what we must. With 
the positive developments in Iraq, the strategic flexibility provided 
by ongoing troop reductions there, and the prospect of further 
reductions next year--I think it is possible in the months to come to 
do militarily what we must in both countries.
    Let me close by again thanking all members of the committee--and 
Congress as a whole--for their support of our men and women in uniform. 
I have noted on a number of occasions how positive the public response 
has been to those who have volunteered to serve. Our Nation's leaders 
across the political spectrum have led the way in honoring our service 
men and women--not just by providing the funds they need for their 
mission, but also by publicly declaring their support and admiration of 
our troops. I share your sentiment. I thank you all for your leadership 
during these challenging times.

    Chairman Levin. Thank you, Secretary Gates.
    General Cartwright?

  STATEMENT OF GEN. JAMES E. CARTWRIGHT, USMC, VICE CHAIRMAN, 
                     JOINT CHIEFS OF STAFF

    General Cartwright. Mr. Chairman and Senator Warner, I will 
not do a prepared statement, but I will respond just briefly to 
a couple of your comments, and those are to remind all that 
over the past few weeks we've celebrated and remembered 
September 11 and the prisoner-of-war/missing-in-action 
remembrance, along with, on the Capitol lawn out here this 
weekend, a session with many of the children of the fallen. In 
each of those, many of you participated. That means a lot to 
the soldiers, sailors, airmen, and marines that go out day-in 
and day-out, volunteer and sacrifice, and to the families that 
sacrifice.
    So my thanks from them to you for that support. It is 
important, and I am ready for your questions.
    Chairman Levin. Thank you, General.
    Why don't we try an 8-minute first round.
    Mr. Secretary, you commented on the relative commitment of 
our forces, our energies to Iraq compared to Afghanistan. The 
Chairman of the Joint Chiefs Admiral Mullen, in a statement 
which has been clearly and broadly quoted--you quoted it in 
your own testimony--said that ``In Afghanistan we do what we 
can and in Iraq we do what we must.''
    Now, your testimony says that it's possible in the months 
to come to do militarily what we must do in both countries. It 
seems to me that is just simply not good enough. To say it's 
possible that we'll do what we must do in Afghanistan does not 
represent the kind of commitment of forces or resources that 
our commanders on the ground are asking us for. We have General 
McKiernan, he's requested three more Army BCTs in addition to 
the one that's now set to deploy in January. He said recently 
that ``The danger is that we'll be here longer and we'll expend 
more resources and experience more human suffering than if we 
had more resources placed against this campaign sooner.''
    That's our commander on the ground. Why are we not 
responding promptly to that request from our commander on the 
ground in Afghanistan, given the fact that I think most people 
would agree that the terror threat to us from that area along 
that border, is probably the most existential threat that we 
face. It's the greatest source of the terror threat. What are 
we just sort of saying, well, we'll send one team in February, 
silent on what happens after that, when our own commander says 
we need at least three teams above that commitment?
    Secretary Gates. First of all, the requirement for forces 
in Afghanistan has been evolving. To tell you the truth, when I 
left for Afghanistan last week, my impression was that the 
requirement was for a total of three BCTs, not four. These 
things change even while you're in the air, and that request is 
in the Pentagon, but has not yet come to me for the fourth BCT.
    The reality is, as I indicated in my remarks, over the past 
18 months between ourselves and our allies we have added over 
20,000 troops to Afghanistan. I realize what the requirements 
of the commanders are and I have given great deference to those 
requirements, both in Iraq and in Afghanistan, beginning with 
the measures I took in Afghanistan a year ago January.
    I would say there are two considerations. One, I think we 
need to think about how heavy a military footprint ought to 
have in Afghanistan and are we better off channeling resources 
into building and expanding the size of the ANA as quickly as 
possible, as opposed to a much larger western footprint in a 
country that has never been notoriously hospitable to 
foreigners, regardless of why they're there. So I think that's 
one question that we have to weigh and the next President will 
have to weigh in terms of the troop requirements, is the 
balance between increased Afghan capacity and the increased 
footprint, particularly of Americans, in terms of the forces 
that we have on the ground.
    The second consideration is one that is, I think, evident 
to all, and that is that without changing deployment patterns, 
without changing length of tours, we do not have the forces to 
send three additional BCTs to Afghanistan at this point. My 
view is that those forces will become available, probably 
during the spring and summer of 2009. The President made a 
commitment in Bucharest to send more troops. That's obviously a 
decision that will be up to his successor.
    I believe we will be able to meet that commander's 
requirement, but I believe we will meet it in the spring and 
summer of 2009 rather than immediately.
    Chairman Levin. If we reduced our troops and our presence 
in Iraq more quickly, would we be able to meet the U.S. 
commander in Afghanistan's request more quickly?
    Secretary Gates. Let me ask General Cartwright.
    Chairman Levin. That's a very short question: If we reduced 
our troop presence--and that's fine, General, for you to answer 
it. But if we reduced our troop presence in Iraq more quickly, 
would we be able to meet our U.S. commander in Afghanistan's 
request more quickly?
    General Cartwright. We would not be able to meet the 
entirety of that request.
    Chairman Levin. No, could we meet part of it at least?
    General Cartwright. We could meet part of it.
    Chairman Levin. All right.
    General Cartwright. The challenge is the infrastructure and 
the enablers and moving them.
    Chairman Levin. At least we could meet part of his request 
more quickly; is that correct?
    General Cartwright. Yes.
    Chairman Levin. Secretary Gates, Pakistan's President 
Zardari recently warned that Pakistan ``will not tolerate the 
violation of our sovereignty and territorial integrity by any 
power in the name of combating terrorism.'' Now, are we going 
to have the public support of the Pakistani Government in 
implementing any new comprehensive strategy going after those 
safe havens and preventing cross-border incursions, or are we 
going to face the public opposition of the Pakistani Government 
in carrying out whatever cross-border military actions we 
determine are necessary?
    Secretary Gates. I think it's essential for Pakistan to be 
a willing partner in any strategy we have to deal with the 
threat coming out of the western part of Pakistan and in 
Afghanistan. This is the first time that Pakistan has had a 
fully civilian government I think in about a dozen years. It 
has taken some time for them to get their feet on the ground 
and get organized. The fact is that in recent weeks the 
Pakistani army has been active in the Northwest Frontier area, 
in the Federally Administered Tribal Area (FATA). Regardless of 
the effectiveness of their operations, their mere presence and 
willingness to fight has reduced some of the pressure on the 
Afghan side of the border as the Taliban and others keep more 
troops at home to watch their backs, as it were.
    But Pakistan has to be a part of this strategy going 
forward. They have to be our partner and we have to engage them 
in a way that makes it very helpful. I would tell you in a 
gratuitous bit of endorsement here that some of the bipartisan 
proposals here on the Hill for a multi-year economic assistance 
package to Pakistan I think would make a significant 
contribution in signaling our long-term commitment to that 
country, to its civilian government, and to the well-being of 
the Pakistani people. That in turn would significantly advance 
our strategic interests.
    Chairman Levin. My question, though, is really a different 
one. Are we going to have the public support of President 
Zardari in Pakistan for any cross-border operations that we 
carry out? That's my question.
    Secretary Gates. I don't think that they can do that. I 
will say to you though, that we will do what is necessary to 
protect our troops. But it is very important to engage the 
Pakistani Government, and I think that the threat that they are 
seeing creates, to themselves, the opportunity where we can 
work together and there's no necessity for us to take any 
actions to protect our troops along those lines.
    Chairman Levin. I agree with you, with that. But for the 
President to condemn cross-border operations on our part it 
seems to me just undermines the efficacy of those actions, 
creates popular opposition, and gives the people who are 
training folks to attack our people, who are training 
terrorists, the kind of propaganda fodder that they're looking 
for.
    It seems to me that there has to be some kind of a better 
relationship and an understanding than we currently have. I 
think that public condemnation of our cross-border activities, 
just works against their usefulness. For us to say, well, he 
can't do that, to me is totally unacceptable and undermines the 
usefulness to a large extent of those operations and is 
counterproductive. Would you agree with that?
    Secretary Gates. We need his help. We need him to be a 
partner.
    Chairman Levin. Senator Warner.
    Senator Warner. Just to follow on that very important line 
of questioning. Basically I share the chairman's concerns. I 
copied down what you said: ``Pakistan must be a willing 
partner.'' What's your own personal assessment of this new 
government today and do you think over a period of time that 
partnership can be forged? Namely, has there been sufficient 
time for you to gain confidence that's likely to come about?
    Secretary Gates. I actually think it will. I think we're 
already seeing some positive signs. Pakistan is already 
cooperating with us in some very important ways in terms of 
helping us with logistics. They have suffered several thousand 
casualties in this war on terror. They have captured a number 
of high-ranking al Qaeda and other terrorist leaders over the 
course of this war.
    Pakistan has been a good partner in this war, and what's 
important is to forge an even stronger partnership with the new 
civilian government as we had with its predecessor. I think 
that the nature of the threat that we face, beginning with the 
assassination of the current president's wife, and now most 
recently the attack on the Marriott Hotel, makes very clear to 
the Pakistani Government that they face an existential threat 
in the western part of their country.
    General Cartwright. I would just add, the relationship is 
improving between the Pakistanis and the Afghanis and we're 
starting to see some signs of that, in addition to at the 
tactical level an uptick in their willingness to work with us 
in the border control centers, to stand up a common operations 
center, so that we can monitor both sides of the border and 
both militaries can see what's going on. So we are starting to 
see a level of cooperation that we did not have in the past.
    Senator Warner. Well, have you had an opportunity to read 
the article this morning saying that the Afghans, the Pakhs, 
and the U.S. may be discussing the creation of a joint military 
task force? Were you able to read that or do you know something 
about it? Because that to me is one of the most encouraging 
signs that I have seen.
    General Cartwright. I do not know about that specific 
instance, but the things that I just cited to you and the work 
that is going on across the border indicate the same type of 
relationship. There is an acknowledgment by both sides that 
they have a common threat that they're going to have to address 
together and addressing that singularly will not solve the 
problem.
    Senator Warner. Well, let me press on. The Afghan defense 
minister--and the Secretary apparently met with him a few 
times--said he proposed the idea and it was discussed last 
month at the meeting of military officers from the three 
countries. I certainly would support that effort and I think 
all of us would.
    Is there any more gravitas to this story this morning, or 
is it just a little blip?
    Secretary Gates. I met with Minister Wardak, as well as 
with President Karzai last week. This kind of a tripartite 
effort did not come up and was not raised by them. I did agree 
to a proposal by Minister Wardak for a combined or joint 
Afghan-U.S. investigative committee to look into and 
investigate civilian casualties. But that was the only similar 
thing that was raised.
    Senator Warner. I thank you for that. General, back to a 
tough question, which is distinctly the responsibility of the 
Chairman of the Joint Chiefs, and the Vice Chairman, yourself, 
and that's to constantly monitor U.S. readiness. You said 
forthrightly we're not ready, even if we were to reduce 
significantly in Iraq, to suddenly shift those forces into 
Pakistan. Are we to interpret that our readiness is pretty well 
stretched at this moment? The Secretary added that probably we 
could not meet the current request of the commanders in 
Afghanistan until spring or summer. Possibly that's when, 
dictated by weather considerations, the more severe fighting is 
likely to take place.
    Let's talk about readiness. What is the state of readiness 
of our forces today?
    General Cartwright. Senator Warner, the comments that I 
made were less about the physical readiness of equipment and 
personnel and more about changing the posture between one front 
and another. As we look to move forces, as Chairman Levin 
postulated, towards Afghanistan, if we're going to do that 
there are several challenges. We need bed-down spots for those 
forces, infrastructure that would support them.
    Senator Warner. You mean in country Afghanistan?
    General Cartwright. In country Afghanistan, in order to put 
them down. In the winters the climate is harsh there, so we 
have to have that type of capability.
    Two, that has to match up with the strategy that we would 
lay down for those forces. So are we to keep them in 
centralized enclaves or are we going to start to get them out 
into the country? That means that you have to have a basing 
construct that allows that, and the mobility and the 
communications that allow that. Those are two pieces.
    Right now we're structured for a sequence of forces that 
measures infantry, Stryker BCTs, and heavy BCTs in a certain 
sequence. Whether that sequence fits the deployment cycle and 
the needs of Afghanistan, which is mountainous, hard terrain 
for heavy vehicles to traverse, altitude, et cetera. We have to 
restructure our deployment cycles, restructure our training, 
and put the infrastructure in place: those are the challenges 
that I was referring to, sir.
    Senator Warner. Can you describe to the American public 
today, what is your professional judgment as to the state of 
overall readiness of our Armed Forces, to continue to meet 
these contingencies in Iraq and Afghanistan, as well as to 
pivot if a third problem arises, unforeseen at the moment?
    General Cartwright. They are well-trained, well-equipped 
for this fight.
    Senator Warner. What's ``this fight''?
    General Cartwright. This fight is a counterinsurgency, 
counterterrorism fight. For the broader things, a third 
conflict, undefined, we need more time to train them for other 
types of conflict. There is unique training associated with 
Afghanistan that we need to put in place. That takes weeks, not 
months. But we have to do that when we switch a force or a 
group from one country to the next.
    Those are the readiness issues that I was trying to 
address. From the standpoint of the force, moving us quickly to 
at least 12-month tours, which is what we're on the path to do 
for the Army, will be a big assistance in helping us 
reconstitute this force, ensure that the equipment gets through 
the depot and gets up to the top notch that it can get up to in 
readiness. Those things are well in hand. Thanks to this 
committee and others, we're getting the resources to do this.
    But if you add additional stress and take us back towards 
extended tours, that's going to wear on the force very quickly.
    Senator Warner. Mr. Secretary, let's turn to the posture of 
the strategic framework and the status of forces agreement. 
Every expectation was raised here in Congress that these 
agreements would be ready for review by the administration and 
perhaps some forthcoming representation to Congress from the 
administration as to these two agreements. Here we are, about 
to recess Congress in a matter of days perhaps, although we may 
have another session. Who knows? I'm not in the position to 
raise that now.
    But it seems to me that the congressional input on these 
two agreements is absolutely essential if the American public 
is going to accept them. It's a joint responsibility. I realize 
the Executive Branch is tasked --the President is our chief 
diplomat--to negotiate these things. But then again, they 
impact the future use of our forces and that bears on the 
constitutional responsibilities of Congress.
    Where are we on this?
    Secretary Gates. The agreements are still under 
negotiation. We have had some disagreements. It's been a tough 
negotiation. We are now dealing with a sovereign government 
that feels very strongly about its sovereignty. Our negotiating 
team either has, or imminently will, return to Baghdad.
    My understanding is that all the relevant committees of 
Congress, and particularly here in the Senate, have been 
briefed on the course of the negotiations, and it is my 
understanding that even when we reach an agreed text that there 
will be no signature of these agreements before consultation 
with Members of Congress.
    Senator Warner. The chairman, I believe, could speak to 
this better, but we have certainly followed the process. We 
were told that in all likelihood they would be present in July 
before the August recess for us to take a look at. Now, facts 
are facts. I'm not here blaming you or anybody else. I'm just 
saying point blank that if Congress is in recess or goes out 
sine die and suddenly these two agreements come in without any 
clear ability of a coordinated consultation with Congress. Now 
when I say coordinated, I don't mean just one or two chairmen 
here or a ranking there, I believe that there will be an 
inherent weakness in the support across this country for these 
agreements, and that concerns me greatly, because we're 
pivoting again from concentration on Iraq with our military 
forces into Afghanistan. We have to have as much certainty as 
we can as to the projected requirements for Iraq in the future 
in order to address the worsening situation in Afghanistan.
    These agreements are central to that. So are you saying in 
effect that in all likelihood the culmination and the 
finalization of these will take place in November or December? 
You have to do it before the first of the year because of the 
expiration of the U.N. mandate.
    Secretary Gates. I would hope that the agreements would be 
finalized within the next few weeks, quite frankly. But I had 
hoped that some weeks ago. It's just been a tough negotiation 
and, believe me, no one would have preferred anything other 
than to have these things done weeks ago, so there would have 
been ample time to do it, to have a consultation, while 
Congress was still in session.
    But my understanding is there will be a significant effort 
to reach out to Members if these agreements are reached after 
you recess.
    Senator Warner. Well, you run the risk of having the 
American public of a view that somehow this was not handled 
properly or timely.
    My time is up.
    Chairman Levin. Let me just reiterate what Senator Warner 
said. There's a commitment from this administration that before 
the agreements are finalized that there be consultation with 
the leadership of Congress.
    Secretary Gates. Yes, sir.
    Chairman Levin. Whether we're in session or out of session.
    Secretary Gates. Yes, sir.
    Chairman Levin. Okay. That's critically important. We're 
counting on it.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Mr. Secretary, you described the number of troops that the 
NATO allies are adding to the effort in Afghanistan. It didn't 
seem to me that that's a very robust addition by the other 
members of NATO compared to our presence there and our future 
presence there. But hopefully we'll see that improve as we go 
along.
    My first question, is as you look at the largely 
nonregulated, lawless FATA area, is it possible for success to 
occur without a joint effort including Pakistan and 
Afghanistan, as well as the United States, and I guess NATO in 
some capacity? Is it even possible to be successful there 
unless we have all three parties to that agreement?
    Secretary Gates. Senator, I think the answer to your 
question is no. I think that on the Pakistani side of the 
border we face the same situation that we have faced in Iraq 
and Afghanistan, and that is that military action, even if it's 
carried out aggressively and effectively by the Pakistani army, 
still needs to be accompanied by economic development, civic 
development, and so on. That's where perhaps NATO and the 
United States and others can work with the Pakistanis in terms 
of helping them in that regard.
    Pakistan's in desperate economic straits right now and any 
help we could give them in terms of development there I think 
is critically important.
    Senator Ben Nelson. I appreciate that. I think it was 
earlier this year that Admiral Mullen indicated he was 
developing a comprehensive strategy for the region. It would 
seem to me that comprehensive strategy should include this 
three-party joint effort. So I'm surprised that we're surprised 
to learn about the conversation apparently between the 
Pakistanis and the Afghanis without including us in those 
discussions.
    Do you think it would be a good idea on our part to pick up 
the ball here and go back to those two countries and begin the 
discussion about a three-party effort?
    Secretary Gates. Sure. I think there is absolutely no down 
side that I can see. I must say, the one area where I think 
this conversation, assuming it took place, may have happened, 
is when President Karzai was in Pakistan for the inauguration 
of President Zardari. That's where they may have discussed 
this, and we just haven't gotten a readout on it yet.
    Senator Ben Nelson. But the Washington Post said 
Afghanistan, Pakistan, and the United States are discussing. So 
they have included us, perhaps without our knowledge. But 
they've already suggested that that's ongoing. Undoubtedly, the 
discussion took place when the two leaders, Pakistan and 
Afghanistan, were together.
    Secretary Gates. I should just note, Senator, that it's not 
the first time that the Post would have known something I 
didn't know.
    Senator Ben Nelson. I was trying not to say it exactly that 
way, but I guess that is the bottom line. Well, thank you for 
your response.
    In the announcement by the President to withdraw 8,000 
troops from Iraq, we're going back to the pre-surge levels at 
some point along the way. There's been some discussion about 
benchmarks being achieved, but has the oil agreement benchmark 
been achieved? What about provincial elections? I think there's 
a lot of talk about potential success in Iraq and the fact that 
things have improved there, and no one is going to disagree 
with the numbers. But until you get provincial elections, until 
you get buy-in at the local level, is there really a chance for 
major success in Iraq?
    Secretary Gates. I think every element in Iraq understands 
the importance of provincial elections. We certainly do. I 
think that the Council of Representatives, which has just 
convened, is working on getting the provincial elections law 
completed as quickly as possible. But every faction that I'm 
aware of in Iraq understands the importance of that and wants 
those elections, as a matter of fact.
    With respect to the hydrocarbon law: there is no 
hydrocarbon law yet, but, as has been the case for some time 
now, the sharing of the revenue from the hydrocarbons still is 
going on throughout the country.
    Senator Ben Nelson. But as long as that's ad hoc there's 
still uncertainty as to the stability of that sharing; isn't 
that true?
    Secretary Gates. Sure. But the interesting thing is that 
the debate really is less about who's going to get what than a 
debate between two economic philosophies in Iraq. Is oil 
development, servicing and everything going to be controlled by 
the central government or are pieces of that going to be 
decentralized? It's more over this debate over how to do this 
going forward than it is the allocation of resources that has 
held up that law.
    Senator Ben Nelson. How is the centralized government under 
al-Maliki functioning as it relates to the Sunnis in the north, 
where the Sons of Iraq have been established in effect by joint 
agreement between the Sunnis and our government, where al-
Maliki is now sending Shias into the north to disarm some of 
the Sons of Iraq?
    Secretary Gates. Prime Minister Maliki told me last week, 
when I was there, that he had the day before our meeting signed 
a paper in which he gave the directive to absorb Sons of Iraq 
into the Iraqi security forces. For those not going into the 
security forces to pick up their salaries and to continue to 
pay them even if they lacked professional skills until they 
could find work. So I think that really this last week, after 
some concern, I think that there was some substantial progress.
    Senator Ben Nelson. Is this part of an amnesty program? 
Because they seem to be totally opposed to amnesty for any of 
the Sunnis in the north, whereas we've been willing to forgive 
former insurgents who joined together with the Sons of Iraq 
approach.
    Secretary Gates. I think I have never heard the Sons of 
Iraq program described as an amnesty program, but I think it is 
a reconciliation program.
    Senator Ben Nelson. At least a reconciliation.
    General Cartwright. I was just going to add that we've 
actually started to see the movement, the absorption of the 
Sons of Iraq into the military and into other jobs in the 
public sector and private sector. So the activities of a week 
ago have already started to show material activity.
    Senator Ben Nelson. Which would give us some hope that 
reconciliation is at least a possibility, that this might be 
able to spread even beyond the north there.
    General Cartwright. Yes, sir.
    Senator Ben Nelson. What about as it might relate to the 
Kurds in the north?
    Secretary Gates. I think one of the concerns is on the part 
of the Maliki Government, is that Kurdish forces are deployed 
outside of the traditional zone that constituted Kurdistan. 
While the Kurdish military units have been very helpful in 
places like Basra and elsewhere, I think that there is a desire 
to assert the authority of the central government, particularly 
in those areas beyond the traditional Kurdish zone. I think 
that a lot of the confrontation or the set-to that we're seeing 
between the Kurds and the central government really has to do 
with that.
    Senator Ben Nelson. So trying to establish some sort of 
agreement between those two entities could in fact resolve that 
for the future, or is this going to be an ongoing disagreement 
for which there is probably no resolution?
    Secretary Gates. Well, I think there is a resolution and it 
comes back in no small part to provincial elections. I think if 
we can get these provincial elections that it'll be a big step 
forward.
    Senator Ben Nelson. Thank you, Mr. Chairman. My time has 
expired.
    Chairman Levin. Thank you, Senator Nelson.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    Let me first take just a minute to, since this may be the 
last hearing for Secretary Gates, I want to say what respect I 
have for you and the job you've done in terms of 
accountability. Not once but twice, when I doubted whether or 
not you would be willing to fire a top commander based on 
issues within their command, you exceeded my expectations both 
times and provided I think desperately needed accountability by 
placing blame at the top of the command, as opposed to what had 
traditionally gone on, which is trying to only provide 
accountability at the bottom of the ladder.
    So from this United States Senator, I just want to 
compliment you. You have my deepest respect for your public 
service and for your willingness to make the very tough 
decisions at the very top.
    Secretary Gates. Thank you, ma'am.
    Senator McCaskill. I also want to ask you, would you 
disagree that the terrorist threat that we face right now is 
strongest in both Afghanistan and Pakistan? That is in fact 
where the most threat lies in terms of terrorist activity?
    Secretary Gates. I think that there has been an interesting 
evolution of the terrorist threat being strongest in 
Afghanistan in 2001. By the mid-2000s al Qaeda itself was 
saying that Iraq had become the central front. If you ask me 
today, after the successes we have had against al Qaeda in 
Iraq, where the greatest threat to the homeland lies, I would 
tell you it's in western Pakistan.
    Senator McCaskill. As we talk about Pakistan, I know there 
has been some previous questions about Pakistan. I am really 
concerned. I hang out with these Government Accountability 
Office (GAO) reports. I'm concerned about the money we're 
giving Pakistan and the lack of accountability for that, 
especially in light of reports that they're now shooting at us. 
It is hard for me to reconcile us paying Pakistan for their 
willingness to weed our terrorism along their border and then 
the ultimate irony, that we might be paying them to be shooting 
at our helicopters.
    Secretary Gates. Well, first of all, we don't have any 
evidence that they have shot at us or our helicopters at this 
point. But, that said, we are very aware of those concerns in 
terms of accountability. We share them. We have taken very 
seriously the GAO report on the coalition support funds that 
came out in June and are in the process if implementing the 
recommendations in that GAO report to try and improve 
accountability in this area.
    Senator McCaskill. I just think if we're giving them $2 
billion, and we've given them, obviously, billions and billions 
of dollars; I think we're up to $6 billion that we've given 
them to assist us, and obviously we're very frustrated. It 
feels like to me anyway, and correct me if I'm wrong, that 
we're frustrated over the level of assistance that they've 
given us in terms of these safe havens along their borders.
    Secretary Gates. I think part of the problem is that part 
of the border has really never been well controlled by the 
Pakistani central government, regardless of who was in 
authority. I remember going up there in the 1980s when we were 
helping the mujahedin and that was pretty wild territory even 
then.
    I think our concern has really been, our most immediate 
concern, was the peace agreements that were signed during the 
first months of this year, where the Pakistani military 
basically backed out of that area, and that alleviation of the 
pressure created the opportunity then for the Taliban to cross 
the border, and for others as well for that matter.
    So we have already seen the benefits of the Pakistani army 
becoming active again in that area, and we are prepared to do 
whatever we can to help them be more effective.
    Senator McCaskill. Let me also talk a little bit about the 
Commanders' Emergency Response Program (CERP) funds. I know the 
chairman and the ranking member have had some concerns about 
this, and it's been an ongoing concern of mine, the growth of 
this program. I understand winning the hearts and minds and I 
understand being able to cut red tape, but now the initial idea 
was that these would be small, short-term expenditures, as 
opposed to large ongoing programs.
    In reading some of the materials on the CERP program, where 
we're actually building hotels and are, putting in water 
systems without any follow-up; and I know that the field manual 
talks about money as a weapon system. My concern is, Mr. 
Secretary, what are we doing in terms of follow-up on these 
expenditures of money? Who is going to take over making sure 
that what needs to be done; especially for these projects that 
are much more than $500,000 and have long-term consequences?
    Is there any plan to transition this back over to the 
Department of State or to U.S. Agency for International 
Development, since really what we're talking about is coming in 
and trying to better do reconstruction? Obviously, our 
reconstruction efforts were, I think, to be kind, less than 
successful. Now you have undertaken this without any, it 
doesn't appear to me, real plan how we transition that over to 
folks who have long-term training on the follow-up on these 
reconstruction projects.
    Secretary Gates. Well, let me offer some comments and then 
invite General Cartwright to comment. First of all, I know the 
committee is sensitive about the hotel that was started at the 
Baghdad International Airport. Basically, it was to try and 
wrest control of the airport away from Jaish al-Mahdi through 
giving people jobs and creating opportunities for them to do 
something other than shoot at us. We are not investing any more 
money in that. The Iraqi Government has obligated about $45 
million in that hotel and so on.
    But we've also tightened up the procedures. The reality is, 
most of the CERP money has gone to pay groups like the Sons of 
Iraq. I think at this point in 2008 about $280, $290 million of 
the CERP funds have been used to do exactly what we said, and 
that is get these guys to put down their weapons and pick up 
shovels.
    We now have new controls in place. Any project that is $2 
million or over I personally have to approve. There have been 
new procedures put in place for projects that are over 
$500,000. So we are trying to provide better controls and, 
frankly, more transparency here to Congress on how that money 
is being spent, specific projects, and so on.
    General, do you want to comment?
    General Cartwright. I would just reinforce that. As we 
start to rebalance towards Afghanistan, it's going to become 
important again, for the reasons that you cited, the original 
reasons that we started into the CERP program, to be able to 
use CERP, as you would phrase it, as a weapon to bring people 
from fighting against us to working and employ them, and find 
ways to raise the public services that are available in these 
small areas where the security is very low and our ability to 
get in there in a protected way is probably the only ability to 
get in there until we can get the PRTs and other types of 
services in there.
    This is a very important program to us. I couldn't agree 
with you more that we have to make sure that we have the 
oversight in place, that it is transparent, that you can see 
what is being done, and that authorities are at the appropriate 
level.
    Senator McCaskill. But as we pull out is there a plan? Is 
anybody talking about how this transitions over to either USAID 
or to State or preferably the Iraqi Government? Is there any 
kind of work being done on transitioning these projects out of 
our control?
    General Cartwright. There is work right now with the Iraqis 
on them picking up their share, on trying to build inside of 
Iraq a coherent management system. Treasury is working very 
hard on this so that they can manage their resources, a tax 
capability, and ability to distribute resources, which is one 
of their biggest challenges, and we're working very hard with 
Treasury to support that.
    Senator McCaskill. Thank you.
    Chairman Levin. They haven't reimbursed us for all the 
investment that we put into those hotels, have they?
    Secretary Gates. No, but the Iraqis have been willing to 
make about $280 million, I think, available, almost $300 
million in CERP funds that we can obligate or we can tell them 
how to spend.
    Chairman Levin. Thank you.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Mr. Secretary, General, thank you so much for service to 
our country during very extraordinary times. I want to, General 
Cartwright, start by asking you a question with regard to Iran 
and whether or not you think Iran is still exercising a malign 
influence in Iraq? Are they still equipping and training some 
of the Special Groups, so-called Special Groups, and other 
extremist groups for operations inside Iraq that are killing 
Americans?
    Secretary Gates. I think that they continue to train. I 
cannot tell you that I have the smoking gun right now, and my 
sense right now is that the border between the two countries 
and the dialogue that has begun between the two countries, 
which we have encouraged, is giving us the best opportunity to 
get that under control and to get those two neighbors to start 
to treat each other as neighbors.
    We still have very significant concerns about Iran's 
motives. But I would tell you that less so than in the past the 
flow of weapons and fighters has come down.
    Senator Thune. The overall trend is positive, but there's 
still some residual influence there that we need to be 
concerned with? Perhaps as we begin to draw down, do you see 
that influence there increasing over time? Once the U.S. 
presence is less there, will the Iranians try and step in and 
fill that vacuum?
    Secretary Gates. We certainly worry about Special Groups 
and support to those Special Groups re-emerging as we change 
our posture in Iraq. I think that's a fair statement, and 
support by Iran to those special groups would be a concern.
    Senator Thune. How would you describe the latest in terms 
of the Iraqi army and security forces.
    Secretary Gates. By us?
    Senator Thune. Well, just overall. What's their capability 
of the Iraqi army and police forces? That's been such a key in 
terms of our being able to hand off the baton, so to speak.
    Secretary Gates. One, I think that they have progressed 
significantly. In recent conversation with their minister of 
defense, kind of a question of what are you most worried about, 
and it was the logistics infrastructure, schools for NCOs and 
officers, to ensure that we keep building the leadership within 
the organization, logistics, medical, and ISR capabilities for 
the military, and then transportation. Those were his top 
concerns. I share those concerns.
    Senator Thune. Mr. Secretary, shifting to Afghanistan for 
just a moment, you mentioned some of the highlights in terms of 
the contributions that NATO is making with regard to 
Afghanistan. Do you think that they're doing enough in that 
fight and are they addressing and removing any of the caveats 
that they've placed on their troops?
    Secretary Gates. Well, I spent most of last year engaged in 
what one of my NATO colleagues referred to as megaphone 
diplomacy, trying to get NATO to do more. Now I look back and 
realize that over that period of 18 months or so they actually 
have increased their forces by about 10,000. So the truth is at 
least right now the forces are almost in balance, in terms of 
about 30,000-plus from our partners and NATO and from the U.S.
    Now, the direction we're headed, that number is going to 
tilt I think more toward the U.S. side. I do not expect 
significant additional troop commitments from the Europeans. 
There have been some moves since the Bucharest Summit to ease 
or lift some of the caveats, but there are still some 
significant ones in place.
    Senator Thune. General, I asked the question about the 
Iraqi security forces. I'm also interested in knowing about the 
Afghan army and the national police and how well equipped they 
are for combat operations. That has been so essential, I think, 
to the success that we're starting to experience in Iraq with 
regard to getting the Iraqi security forces trained and ready 
to take the lead in more of the space there.
    In terms of the Afghan army, how far away are we from 
having their capability at a point that they can assume more 
and more of the lead?
    General Cartwright. I think the good news side of this 
story is that the ANA is an army that is willing to fight, will 
not back away even under strain. They want to fight for their 
country. They want to be in a position where they can do that. 
They need additional support in mobility and ISR and the 
enablers that are so important.
    We're growing that army and it is resilient. A statistic 
that I received this past week would say that better than 50 
percent of the combat operations are led by the ANA, and we 
partner with them. So we're starting from a different dynamic. 
They still need the enablers.
    We need to grow them. Afghanistan is a significantly larger 
country. We have in the neighborhood of 60 to 80,000 that are 
well-trained and ready to go, in comparison to about 500,000 in 
Iraq. So we have some work to do. We've committed to doubling 
the size. We also have to bring up the size of the police, 
though, and that's going to be a harder problem. We need 
trainers to do that. The police also manage the border, in 
particular that eastern border with Pakistan, and we have to 
bring up the level and the quantity of police forces, ANP 
forces, to help us manage the border in a way that's 
appropriate.
    Senator Thune. Mr. Secretary, how would you characterize 
the level of cooperation between the two governments, between 
Pakistan and Afghanistan, right now? I know there's been a lot 
of tension in the past and it seems to me to get control of 
those border areas and establish a level of security it's going 
to require a heightened level of cooperation.
    Secretary Gates. I think your characterization of the 
relationship in the past as being a tense one is entirely 
accurate. I have the impression overall, and I would say 
particularly from my conversation with President Karzai last 
week, that they are off to a very different kind of 
relationship. I don't believe I've ever heard President Karzai 
speak as positively and as warmly about the Pakistani 
Government as I did last week. So I hope it forms the basis for 
the kind of bilateral or trilateral cooperation that Senator 
Warner was talking about.
    Senator Thune. Thank you very much, gentlemen, for your 
service.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Thune.
    Senator Bill Nelson.
    Senator Bill Nelson. Gentlemen, thank you for your service 
to our country.
    Mr. Secretary, for 25 years I have been trying to protect 
the national security interests of the country in protecting 
the ranges offshore. In the early 1980s, as a young 
Congressman, I had to take on the then-Secretary of the 
Interior James Watt, who wanted to drill off the east coast of 
Florida in the footprint of where we're dropping the first 
stages of the rockets that we're launching out of the Cape 
Canaveral Air Force Station, as well as the solid rocket 
boosters that are dropped from the Space Shuttle coming out of 
the Kennedy Space Center. Ultimately, after two different 
times, was able to prevail in protecting that defense interest.
    It looks like that is not going to occur this week because 
of all the other press of business. But here is the attempt, 
for those that would want to drill in the Gulf of Mexico for 
oil and gas in the area that we have protected by law, which is 
the testing and training and evaluation range, not only for the 
DOD, but for other agencies that have classified programs that 
are tested in that range.
    This matter has come to you for evaluation since the 
standing policy is the policy issued 2 years ago by the 
Secretary of Defense, that a line running north and south which 
leaves the coast at approximately Fort Walton Beach, Eglin Air 
Force Base, that anything east of that line should be protected 
for the national security interest.
    Do you want to comment on your evaluation that is underway 
now in the DOD?
    Secretary Gates. Sure. Senator, after you called me and 
several other Senators called me a few weeks ago on this 
matter, I read Secretary Rumsfeld's decision memorandum from 
2005, I believe, that prohibited drilling in these areas. In 
light of the interests and passage of time, I have tasked the 
Secretary of the Navy to evaluate the test ranges on behalf of 
the DOD and to make a recommendation on whether there is any 
reason to change the decision that Secretary Rumsfeld made in 
2005. To the best of my knowledge, that Navy evaluation is just 
now getting underway. But until it's done and some new decision 
is made, the decision of 2005 stands.
    Senator Bill Nelson. I'm glad that you clarified that. 
We're basically looking at some time down the road, a few 
months or so, before that would work itself through the system, 
since you said the evaluation has just started?
    Secretary Gates. Knowing the lightning-like pace at which 
studies take place in the DOD, that sounds like a good 
estimate.
    Senator Bill Nelson. The reason I bring it up, we were 
going to have an all-out battle here this week by the so-called 
Gang of Ten that were going to completely eliminate that 
testing and evaluation area. Of course, I was insisting at a 
minimum that there be a certification by the President, after 
consulting with the Secretary of Defense, the Secretary of 
Interior, and other agencies that use the range, such as 
classified agencies, that there would not be national security 
interests of the country harmed.
    It looks like that battle is not going to occur this week, 
but at some point that discussion will occur, and we will look 
forward to your testimony at that point.
    Now, let me shift to Iraq. In his book, Bob Woodward says 
that it wasn't only the surge that has made the conditions 
favorable for how you have reported, but that it was also an 
intelligence operation that was quite sophisticated, the Sunni 
Awakening, as well as the Shiite standdown. Would you comment 
on Mr. Woodward's assertion?
    Secretary Gates. I don't think I agree with his 
characterization. I think that, first of all, the Sunni 
Awakening was enabled by the surge. The first tentative signs 
of it began before the surge started, but without the 
additional presence of the Marines in Anbar to provide security 
for those sheiks to go after al Qaeda in their own 
neighborhoods, I don't think the Sunni Awakening would have 
been successful.
    The significant expansion of intelligence capabilities, 
really began about a year ago. We had 12 orbits, I think, in 
both Afghanistan and Iraq, actually about a year ago. We have 
more than doubled that as of now and we'll double it again by 
next year. So I think that we have had some very sophisticated 
operations underway, clearly enabled by intelligence. But I 
think that they have really developed their full force, if you 
will, since the surge began, perhaps not related to the surge 
of troops, but related to the surge in ISR.
    The Shia backing off, who knows what motivated Mr. Sadr to 
call his people off, whether it was the prospect of significant 
fighting with a larger American force or internal Iraqi 
politics or whatever? But clearly a major change in his 
attitude followed the Iraqi Government's successful initiatives 
in Basra.
    So that's the way I would interpret the situation. General?
    General Cartwright. I would just add from the intelligence 
standpoint that at the same time the security of the sheiks and 
the security of the leadership in the communities and 
localities changed their risk calculus. They started to be 
willing to put even their family members at risk to support us, 
to give us critical intelligence on the ground, that really 
started to change the dynamic: Where are the IEDs? Who doesn't 
belong in this town and on this street? Who's in our market 
that doesn't belong there?
    That all built. So it's a little bit of art here, but the 
sequence was really later than was put in the book.
    Senator Bill Nelson. That would apply outside of Anbar 
Province as well?
    General Cartwright. The Awakening in Anbar really set the 
pattern for us as a military to start to understand how to 
engage at the bottom and help grow this from the bottom and 
empower the locals.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Mr. Secretary, just a quick thanks to you for the steady 
hand you have brought to the five-sided building over there. I 
appreciate your commitment on this issue of independent 
contractors, to try to run down exactly what is going on over 
there. I had a meeting with Admiral Mullen about it and we 
intend to pursue this from the perspective of our staff with 
some vigor.
    Let me just start by asking you if the Pakistani Government 
accepts the justification under international law that we would 
apply for the unilateral military actions that have taken place 
in Pakistan?
    Secretary Gates. I don't know for sure, Senator, but I 
would suspect from the public reaction of the government that 
it probably does not.
    Senator Webb. But you would agree that under international 
law there is a justification for the United States to conduct 
unilateral actions inside Pakistan of the sort that have taken 
place?
    Secretary Gates. I am far from expert on international law. 
I just consider it part of my responsibilities to protect our 
troops.
    Senator Webb. But we're a Nation of laws and a leader in 
the international community in terms of the morality of what we 
do. Have we examined that in terms of our right under 
international law?
    Secretary Gates. I assume that the State Department has, 
yes.
    Senator Webb. That was not in the calculus when the 
authorization was made in your presence?
    Secretary Gates. The authorities that we have been granted 
were carefully coordinated over a protracted period of time in 
the interagency. So I would simply assume that in that 
coordination process appropriate international law was 
consulted by the State Department.
    Senator Webb. I'm a little surprised here because I believe 
there is justification under international law. I'm surprised 
that question hasn't been asked of you in some media forum or 
something like that. I believe the United Nations Charter 
allows us the right of self-defense in a situation where a 
foreign government is either unable or unwilling to take care 
of international terrorist activity inside its borders.
    Secretary Gates. That certainly is my view and the fact 
that we are also operating under U.N. Charter in Afghanistan 
would strengthen that view in my opinion.
    Senator Webb. I would say anywhere the United Nations 
Charter and the right of self-defense would arguably apply. I'm 
trying to help you out here.
    Secretary Gates. I understand.
    Senator Webb. I think that we ought to strongly clarify 
that in terms of the public understanding of appropriate 
response.
    Secretary Gates. General, did you have something?
    General Cartwright. I think it was unclear if you were 
looking for specific statute in international law.
    Senator Webb. I'd say Article 51 of the United Nations 
Charter, right of self-defense.
    General Cartwright. Article 51 is the basis by which we are 
there and acting. But the right of self-defense is something 
that we never cede.
    Senator Webb. In terms of international terrorism, this is 
really in my view the appropriate response when a government is 
either unable, as is probably the case in some of those border 
areas in Pakistan, or unwilling to take care of international 
terrorism inside its own borders.
    Let me shift to something else. What percentage of our 
logistical functions in Afghanistan begin in Pakistan, roughly?
    Secretary Gates. I would say that about 80 percent of dry 
cargo and about 40 percent of fuel come through Pakistan.
    Senator Webb. Arnaud de Bourchgrave wrote a piece about a 
week or 10 days ago saying that the Pakistani Government had 
threatened to shut down our access to those facilities in 
protest of the actions that were taking place along the border 
area.
    General Cartwright, is that something that's plausible, and 
if that were to occur what would happen in terms of sustaining 
our presence inside Afghanistan?
    General Cartwright. It would be challenging to sustain our 
presence. We have done a substantial amount of planning against 
a contingency like that, whether it was a complete shutdown or 
whether it was partial, one of the gates being closed out of 
protest or something like that. It is very difficult then to 
get to this landlocked nation in a way that would provide the 
quantity of resources that we need, particularly as we see 
ourselves growing.
    We have three or four what we're calling test cases that 
we're running of alternative routes to get both dry bulk and 
fuel into the country. They started about 3 weeks ago and we're 
working our way through to understand rail, pipelines, customs, 
what would it take, are they there in a sufficient scale to 
allow us to do this. So we're working this one pretty hard.
    We listened to that comment. We heard it more in the press 
than we did from the government, and there was some discussion 
about maybe one of the gates had closed down for a few hours. 
But that's the most that we've seen. But we still take this 
issue seriously because it could be a vulnerability.
    Senator Webb. If that were to occur, I would assume again 
just from reading press reports that alternate routes, a good 
many of them would go through areas that would require the 
cooperation of the Russians?
    General Cartwright. Potentially, particularly the pipelines 
and some of the rail lines. But we're looking at that 
challenge.
    Senator Webb. Basically what we're seeing in reality is the 
larger we grow the force in Afghanistan, the more vulnerable we 
are strategically to the situation diplomatically that we're 
facing in Pakistan and in Russia?
    General Cartwright. Yes, the larger the force the greater 
the need.
    Senator Webb. One other question. From materials that I've 
been reading--and as a matter of fact, there's an article in 
this week's Economist to this point--about Pakistani 
activities, there are people who are saying that Pakistan has 
been going after al Qaeda with some regularity, but has been 
very reticent about, or less enthusiastic, about going after 
Taliban. Do you see that distinction?
    Secretary Gates. Let me comment and then invite the 
General. One of the things that I think makes the Regional 
Command East more complex than the rest of the country and more 
difficult in many respects is that the problem is not just the 
al Qaeda, but the Haqqani network, Gulbadin Hekmatyar, and some 
others. Pakistan has had some long-term relationships, 
particularly with Hekmatyar, probably also with the Haqqani 
network, and they don't see these people necessarily as their 
enemy and they don't I think in many respects see the Taliban 
as their enemy.
    They see some of the insurgents, they see the foreign 
fighters, they see al Qaeda as their enemy, and particularly if 
it is shown that al Qaeda was behind the Marriott bombing and 
so on. They also see Besmullah Khan as their enemy.
    Frankly, I think one of the keys in terms of expanding our 
cooperation with the Pakistanis is identifying common threats 
if they see us taking an action, it has been against somebody 
they consider an enemy to them as well. So that's one avenue of 
approach. But they do not see some of these groups in the same 
way we do.
    General Cartwright. I would just add that by putting this 
joint command in place that would allow us to share the 
intelligence and share particularly the ISR, so that there is 
visual proof or convincing evidence that someone is an 
adversary, will help us in that area.
    Senator Webb. Just to make your point, the Economist 
article indicates that only 48 percent of Pakistanis back 
military action against the Taliban and that the army is just 
as divided as the population.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Webb.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman.
    Thank you, Secretary Gates, General Cartwright. My guess is 
you will be back before us, Secretary Gates, before the end of 
this administration. But on the rare possibility that you're 
not, I want to join Senator McCaskill's thanks and praise to 
you. It struck me as she was talking about you that if there's 
ever been anybody in American public service who exemplifies 
the Teddy Roosevelt invocation to speak softly and carry a big 
stick, and in your case to wield it wisely, it is you. I thank 
you for all of that combination.
    I want to talk first briefly about the connection between 
Iraq and Afghanistan and the conflict in both places. 
Obviously, we are drawing down our forces in Iraq because we 
are succeeding there. We are contemplating moving more forces, 
in fact we are, to Afghanistan because we found, well, that 
numbers matter.
    I certainly take it to be the belief of our military 
commanders in Iraq that, though the gains we've made there are 
substantial, they are not, in General Petraeus's terms, 
irreversible, and that if we draw down too rapidly from Iraq we 
may lose some of the gains we've achieved there, even if we do 
so to send more troops to Afghanistan more quickly. Do you 
agree with that view?
    Secretary Gates. I'll quickly answer and then ask General 
Cartwright. I think that they are uneasy about putting at risk 
the gains that have been bought at a very high price, and 
therefore, they know we are coming down in Iraq.
    Senator Lieberman. Right.
    Secretary Gates. This will be part of whatever agreement we 
have with the Iraqis, because the truth of the matter is they 
want us out, too, but not too quickly, because they don't want 
to see the gains jeopardized, and they still need to gain more 
confidence in each other and in their own army and so on. There 
is kind of a mutual sense that we want to see a smaller and 
smaller coalition-U.S. footprint, but at a pace that safeguards 
the gains to the extent possible that have already been 
achieved.
    I think that this is why you got a fairly cautious 
recommendation from General Petraeus, that ultimately CENTCOM 
and the Joint Chiefs endorsed, despite their understanding and 
their focus on other fights, including Afghanistan. I think 
that there is a broad view among the most senior military that 
we do need to continue drawing down, we do need to continue 
narrowing our footprint in Iraq. We do need to be transitioning 
our mission to something that is very different than where we 
have been during the past 18 months, but we need to do it 
carefully.
    Senator Lieberman. General, before you begin let me ask you 
specifically, and I'm going back to something I believe Senator 
Ben Nelson asked about, which is you responded to the 
importance of the provincial elections in Iraq. Isn't it true 
that one of the reasons that our military commanders on the 
ground in Iraq don't want to see our troop presence there drawn 
down too quickly is that they are mindful of the importance of 
a secure environment when those provincial elections occur?
    General Cartwright. I think that's a very accurate 
portrayal, and I would only add: One, we do not want to 
jeopardize the gains that we've made. We've paid a very high 
price for those gains in security and capability of the Iraqis. 
By the same token, we are looking at the risks that are growing 
to the homeland in Afghanistan. It is easy to talk about a BCT 
here and a BCT there. It is not that simple. Reposturing in 
Iraq has to be done carefully and it has to be done in mind 
with the idea that the Iraqis are taking certain measures under 
their own wings in police and military, and so moving out of 
the cities is important. That means we have to go to someplace 
new, but we have to be responsive.
    Enablers are critical. Those same enablers are what is 
critical in Afghanistan. So while we focus on the BCTs, I would 
tell you the numbers and the capabilities and the limiting 
factors are in those enablers, and how we manage those enablers 
so, in Marine terminology, we don't end up with one foot on the 
ship and one foot on the shore is critical.
    Senator Lieberman. Agreed.
    Let me turn to Afghanistan now. It's clear from your 
testimony this morning or we know that the enemy, the Taliban 
particularly, has both increased its numbers, is employing more 
lethal equipment, including IEDs that are killing our troops 
and the Afghans.
    I wanted to ask you the extent to which we see increased 
Iranian support for the enemy in Afghanistan playing a part in 
this increased tempo by the Taliban? I know we've just talked 
in response to Senator Webb about the role of Pakistani support 
for the Taliban. How about the Iranians?
    Secretary Gates. There's some evidence of Iranian support 
in the west in particular. It does not seem to be significant 
at this point. There are some indications that they would like 
to expand that presence and create more problems for us. They 
do want to maintain a good relationship with the Afghan 
Government, so it's a little bit like the situation with Iraq 
as they weigh how much trouble can they get away with causing 
us and at the same time not spoil their relationship with the 
government.
    Senator Webb. That's well stated. So let me ask the 
question more generally. How do you explain the source of the 
increased activity and lethality of the enemy in Afghanistan? 
Where is it coming from?
    General Cartwright. I think when we look in general terms 
at the character of the attacks that the forces weather out 
there and encounter, there is a percentage in the 30 or 40 
percent that seem to be trained and equipped and come from 
outside the country, mostly from the Pakistan areas. There is 
about another 30 or 40 percent--and don't take this Marine math 
too technically--that are locals, so in other words they come 
together in a common attack. We are seeing onesies and twosies 
of that group of advisers from neither place, that come from 
outside, may have been brought in by al Qaeda or someone else, 
that are there and are managing the relationship between the 
two groups, setting them up for complex attacks.
    I would add just one more thing. They are smart enough to 
know that they can engage us for about 20 or 30 minutes and 
then they must break contact because our air will get there.
    Senator Lieberman. Thanks. My time is ending.
    Secretary Gates, let me just thank you for the initiative 
to increase the size of the ANA. I think that in my own trips 
there and talks to our military there is great respect for that 
army. If in fact we need more boots on the ground in 
Afghanistan, they obviously don't all have to be and shouldn't 
be American or even NATO. I think this emphasis on increasing 
the Afghan army is critically important, and I thank you for 
it.
    Secretary Gates. At the end of the day, from a military 
standpoint the Afghan army is our exit strategy.
    Senator Lieberman. Correct. They're really ready. That is, 
they're willing. They may not all be ready, but they're 
willing.
    Secretary Gates. They are very tough.
    Senator Lieberman. They're tough.
    Thank you.
    Thanks, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. I apologize for 
having been down at the EPW meeting. I'm trying to reprogram 
myself here so I can remember what's going on.
    General Cartwright, you're the best one to get into this. 
Right now we are at some difficulty in our authorization bill. 
There's a lot of provisions in there that I was particularly 
interested in. One is all three of the provisions on train and 
equip. It was 1206, 1207, and 1208. I've had very strong 
feelings about that. However, we're not sure whether that's 
going to make it now. It is in our bill.
    Would you like to comment on the value of that expansion 
that we put in there?
    General Cartwright. I will let the Secretary jump in on 
this. But this area is one that we feel very strongly is a 
partnership with State, that allows us to avoid conflict if we 
do it right, if we get at it early, to build partnership 
capacity, allowing nations to basically be able to defend their 
sovereignty and manage their borders in a way that doesn't get 
us to conflict.
    Having those funds and having that authority with the 
people who are on the ground and are meeting day-in and day-out 
and working day-in and day-out is critical to us. This is more 
about the authority to do it than it is about the amount of 
money, as you well know. But we have found that the ability for 
all of the combatant commanders, not just CENTCOM, to start to 
be able to get out into their region and help nations help 
themselves is essential.
    Senator Inhofe. Well, very closely related--I'm sorry.
    Secretary Gates. I just wanted to say, Senator, I wanted to 
thank you and this committee in particular for your support of 
the 1206 authority. For all the nice things that have been said 
about the speeches I have given on the full range of national 
power and how do we use all the tools of national power so that 
kinetic action is the last choice and we have other choices 
before, this ability to equip our partners with the ability to 
protect themselves is absolutely central to a future in which 
we don't so often have to deploy American men and women in 
uniform to do this job.
    This is absolutely central as part of that quiver or that 
arsenal of nonkinetic capabilities that make it less likely we 
will have to deploy American kids abroad.
    Senator Inhofe. Since I'm getting the answers I want here, 
let me continue to roll. The CERP program, now they've changed 
the name here, but part of the effort of globalizing CERP so 
it's not just in two areas. But the concept of being able to do 
it and getting it done immediately, without having to go back 
all through the time that it takes to get things done in 
Washington, DC, I think is very, very valuable.
    I just feel strongly about the expansion of that program in 
the areas where it's already allowed, as well as areas where 
it's not right now. Do you agree with my thoughts on that, 
giving the commanders in the field that authority?
    Secretary Gates. Absolutely. It is so important to us. 
There is just a human dimension to being able to present to 
someone the resources to do what they need to do to improve 
their quality of life and actually have that tied to a 
uniformed person, a face that's going to be there through the 
whole execution of the project. It builds a level of trust. We 
talked a little bit earlier about intelligence, but having that 
relationship established allows us to understand the street-
level activities that are going on around us, for which we will 
never be sensitive to. It's like you in your neighborhood, you 
know when a car is there that doesn't belong there. That kind 
of input, that kind of intelligence, allows us to be effective 
and allows them to help themselves.
    Senator Inhofe. I happened to be in Baghdad when they were 
trying to get the electricity to homes, and people were 
actually going out there with wire and tying it on and all 
that. That was a good application of CERP being able to save 
lives. We were able to save X number of lives every day to be 
able to do that.
    Frankly, I feel the same way about the International 
Military Education and Training Program. For a number of years, 
we treated that as if we're doing them a favor in having them 
come over and train with us. Our experience has been, Mr. 
Secretary, as you well know, once these officers come over and 
get trained here, they develop an allegiance that stays with 
us. We used to say that they couldn't do it unless they had, 
what was it, Article 29? Anyway, we've been able to eliminate 
that, to encourage them to come over. We know if we're not 
doing it China's going to do it.
    Secretary Gates. One other point. We've talked a lot about 
Pakistan here. The United States is paying a heavy price for 
the fact that for 12 years Pakistani officers were not coming 
to the United States to be trained. So we have senior officers 
in the Pakistani army who have very close relationships here in 
the United States and have a very favorable view of the United 
States, but midlevel and junior officers, we're dealing with a 
whole generation of Pakistani officers who have not studied in 
the United States, have not developed relationships with our 
military, and we may pay a heavy price for that.
    Senator Inhofe. That's a good testimony to use in favor of 
this program, because we're seeing it now down in some of the 
African nations, sub-Saharan Africa, where we are hopefully 
going to be able to help them in building five African 
brigades.
    The last thing, and I won't belabor any of this because I 
know you probably covered it while I was down at the other 
hearing. But the surge, the success of the surge. I don't think 
there's anyone left out there in his or her own mind that 
doesn't agree that this has just been very successful.
    I had occasion to be in Fallujah and some of the other 
areas during this time and I just look at the performance of 
our people, of what David Petraeus has done, and I am so 
thrilled with that.
    I know it's more difficult in Afghanistan. When I was there 
I took the last trip with General Jones before he retired. 
Right now one of the major problems is there really isn't that 
central authority you can deal with like you can in other 
places. You have a bunch of mayors and local officials.
    I don't want you to repeat anything you've already stated, 
but if there's anything that you have not stated yet about how 
to overcome that and the path forward with our NATO allies in 
Afghanistan, this would be an opportunity to do it.
    General Cartwright. You put your finger on one of our 
greatest challenges, which is the separation in principle 
between the central Government in Afghanistan and the tribal or 
feudal system that is there, and trying to bring those closer 
together, trying to attack the enemy in a way that allows us to 
bring the tribal side of the equation closer to the central 
government and create an understanding. This is not a concept 
which they readily embrace. The power centers are not set up 
that way culturally. It is probably in my mind one of the 
biggest challenges for the central government to start to be 
able to present services and security to its population.
    Secretary Gates. I think two of the long-range challenges 
we face in Afghanistan are, first, the fact that it's a 
desperately poor country, the fifth poorest in the world, in 
contrast to Iraq; and second, this is a country that in its 
whole history has never had a tradition of a strong central 
government. So trying to create an effective central government 
at the same time is going to require working with them and 
helping them strengthen the provincial and local governments in 
a way that they don't just become another warlord or another 
militia.
    Senator Inhofe. My time has expired, but I want to thank 
both of you for your great service.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Secretary Gates, I would just, before we get into this 
subject, have to make a comment about your deputy's comments a 
few days ago about the tanker competition, in which he 
revealed, I think for the first time, that the Boeing aircraft 
was 25 percent more expensive in the bid process that went on 
to select the best aircraft. Of course, the Northrop team's 
aircraft was 16 years younger and had more capability, and it 
appeared that the prices, from what we heard, may have been 
fairly close.
    But this is a dramatic difference in price and I'm somewhat 
disappointed, I have to say, that competition has not gone on 
to conclusion. I just want to say that.
    Secretary Gates. Can I just say, Senator Sessions, I am 
very disappointed also. I had believed when I moved this 
competition under the Under Secretary for Acquisition, 
Technology, and Logistics that we knew, as much of the 
newspaper commentary at the time said, that the timeline was 
going to be short, but that we ought to be able to get it done.
    After we issued the request for proposal, it became clear 
that if we got it done at all it would be in the last few days 
of the administration. Part of my concern was, frankly, I 
didn't like the smell of approving a potentially $100 billion 
contract or opportunity in the last day or 2 of being on the 
job.
    We considered an alternative. Because both planes met the 
technical qualifications, we considered changing the 
competition to one based simply on the best deal for the 
taxpayer, who could come up with the cheapest number for us to 
go forward. But after talking with a lot of folks, we realized 
what that meant was that after 7 years of a competition based 
on value, we would be changing the rules at the end of the game 
to one based purely on cost. So we'd be changing the rules at 
the end of the game.
    My hope is that the next administration will move forward 
with this very quickly, and my advice to them would be to 
establish minimum military requirements--what do we need--and 
then what's the best deal for the taxpayer. My hope would be 
that this is what I would have done if we had more time. We've 
gotten in previous competitions with things like 800 
requirements and things like that. I think it's a classic case 
of overcomplicating the problem, and I think that a 
straightforward, ``does the plane meet these technical military 
requirements and who will provide the taxpayer with the best 
deal'' would be the best course of action.
    My hope is the next administration will move forward 
promptly with this.
    Senator Sessions. I was pleased when you said you intended 
to assume responsibility for it and move it forward and was 
disappointed when you were not. I don't know how much this may 
mean in terms of delay and extra cost and whether politics will 
infect the process. I certainly hope and believe that the 
Department of Justice will resist allowing that to happen.
    We can talk about that some more perhaps, and I would like 
to do that.
    What happened in Iraq was an acceptance of the tribal 
nature of the society, at least in a number of areas of the 
country where the tribes were very strong, a partnering with 
them because, as I think you indicated, General Cartwright, 
people know who the foreign al Qaeda fighters are, they got 
tired of them, and a partnership was reached between the United 
States military and the local historic leadership in these 
communities, and that's what made the difference in many ways, 
certainly in the al-Anbar Province. Would you fundamentally 
agree with that premise?
    General Cartwright. Yes, sir, I do.
    Senator Sessions. How are we in Afghanistan now? I think we 
have to be a lot more humble than we have been. This idea that 
we can go in and remake a country like Afghanistan, that's 
poor, very big area, with scattered tribal groups, that we're 
just going to somehow remake them and have some bureaucrat in 
Kabul start dictating how things are going to run in far-
distant provinces--I hope we're not so committed to that that 
we don't see the opportunity that we found in Iraq.
    Secretary Gates?
    Secretary Gates. Senator, as we look at our way forward in 
Afghanistan, one of the things that I think we need to do is 
listen better to what the Afghans are saying and the Afghan 
leadership. We all know that the leadership has its 
deficiencies, but they know their people. The history of 
Afghanistan has been that if the Afghan people see a foreigner 
that they believe is trying to help them, it works out okay. If 
they see a foreigner that they regard as an occupier, it hasn't 
ever worked.
    We need to make sure that our military planning and our 
operations are aligned with the interests of the Afghan people 
and that they see that they are aligned in that way. We need to 
work harder at doing more to avoid civilian casualties. We need 
to weigh the consequences of that against any potential 
military advantage.
    As we think about how we do this going forward, I think 
you've put your finger on it, and frankly one of the worries 
that I had when I took this job was that in both Iraq and 
Afghanistan we were so focused on the central governments that 
we were moving orthogonally to their culture and to their 
history, and that we needed to better align ourselves with the 
way the country really works, and that meant paying more 
attention to the tribes, to the sheiks, and so on in Iraq, and 
then in Afghanistan.
    What we have to figure out with the Afghan Government is 
how do you empower provincial and tribal leaders, as I 
suggested earlier, without creating warlords and 
extragovernmental militias? But clearly we have to focus more 
on the tribes and the provincial areas in Afghanistan, at the 
same time we try to build capacity for the central government.
    Senator Sessions. I think if those local leaders, tribal 
many of them, who have respect in their communities, who have 
been affirmed by the community as their leaders, I think we do 
well to see if we can partner with them and try to help them 
achieve their goals, which is for a better community that they 
live in for the most part, and help them achieve that, perhaps 
we can achieve the same sort of partnership we achieved in 
Iraq.
    Is that our direction? I guess since General Petraeus was 
involved in this and he now has that command, do you see us 
moving, utilizing some of the same techniques of Iraq in 
Afghanistan?
    Secretary Gates. I suspect so, along the lines we've just 
been discussing.
    Senator Sessions. Thank you, sir.
    Chairman Levin. Thank you, Senator Sessions.
    Let's try a 5-minute second round.
    First let me say how much I agree with what you have just 
said and what Senator Sessions just said in terms of working 
with the people of Afghanistan, and realizing that whenever you 
have a military action you have to look at not just what you 
might achieve, but also the unintended consequences of that 
action.
    I think we need to do that across the board, not just in 
Afghanistan, but also in our operations in Pakistan. I think we 
have to understand that if we're going to be attacked by the 
Pakistani Government for what we're doing to protect our troops 
that there are some significant down sides and we have to try 
to limit that to essential operations, going after high-value 
targets, sticking close to the border, taking the consequences 
where the value to be gained or the benefit to be gained is 
getting a really high-value target, and avoiding some of those 
negative consequences in the process.
    But I think Senator Sessions has put his finger on 
something very important in terms of Afghanistan as well as 
other places, and working with the Afghans.
    One of the things, however, that sort of goes in the other 
direction in a sense in Afghanistan is that I understand, as 
Senator Lieberman pointed out, their national army is well 
respected inside of Afghanistan. It's highly motivated. They do 
not like the Taliban and they don't like al Qaeda. They are 
fighters. This is a very different situation from Iraq.
    But the one question, though, is are they accepted and 
respected inside of Afghanistan generally, that ANA, would you 
say?
    General Cartwright. Yes, sir. They are respected. The 
challenge that they have, and I won't call it a shortfall on 
their part, but there aren't enough of them to be where they 
need to be.
    Chairman Levin. Let's go into that. That's what I really 
wanted to get to. Why is it going to take them 5 years to add 
30,000 Afghan troops?
    Secretary Gates. The goal for the force right now is 
80,000. They are at about 65,000 or 66,000. The goal is to 
increase the size of the regular army to 122,000, with an 
additional 12,000 that's kind of a float that would be in 
training or in school at any given time.
    Part of the challenge is, again in contrast to Iraq, a very 
substantial number of the Afghans are illiterate, for openers. 
So when we talk about basic training, we're talking about 
really basic training. It's a matter of equipping them, it's a 
matter of training them. I think that Minister Wardak would 
tell you that if he can accelerate that process he would.
    Part of the challenge that we're going to face and where 
we're going to try and take the lead is the cost, the steady 
state cost of an army of about 122 or 134,000 is about between 
$2 and $2.5 billion a year. Overall Afghan Government revenues 
this year will be $700 million. So our view is we have a lot of 
partners and friends and allies around the world who do not 
have fighting forces in Afghanistan. We see this as an 
opportunity for them to get some buy-in to this U.N.-
commissioned endeavor in Afghanistan by contributing to the 
money that would expand the ANA. If we're successful in that 
and if the money's available, then we may be able to accelerate 
the growth of that army. My impression is they do not have a 
problem with recruitment.
    Chairman Levin. That's my understanding, that money's the 
problem. When you compare what we're spending in Iraq to what 
we're spending in Afghanistan, what that cost is, it is a tiny 
fraction. To pay our share--and I agree with you our allies 
have to do much more, but our share of the Afghan army--is a 
tiny fraction of the monthly cost of our presence in Iraq.
    Secretary Gates. We've taken care to be sure to include 
some money in our budget for that, too.
    Chairman Levin. I think it's critically important. They 
have the motivation, they have the capability. You say they're 
not literate, but do they not follow orders from their 
commanders, whether they're literate or not? I mean, is that a 
problem?
    Secretary Gates. Sure. I mean, nobody ever questioned these 
guys' ability to fight.
    Chairman Levin. I think that's the real issue.
    Secretary Gates. Including the Soviets.
    Chairman Levin. I think that is exactly the issue.
    On the reconstruction issue in Iraq--and we're glad that 
we're not going to pay any more for those hotels at the Baghdad 
Airport. We are, I notice in the spending plan for the Iraqi 
security forces funds which we just got 2 weeks ago--this is 
the plan for next year. This plan includes hundreds of millions 
of dollars for things such as 12 new police stations, 4 
national police bases, headquarters facilities for the Iraqi 
military. Why are we paying for those? That's the September 12 
plan we just received.
    Secretary Gates. I'll have to go back and look at that, Mr. 
Chairman.
    Chairman Levin. Fair enough.
    Thank you. My time is up.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman. Thanks, Senator 
Sessions.
    I want to continue the chairman's line of questioning about 
the ANA, and I totally agree with what he said. Incidentally, I 
had the honor of having Minister Wardak, the Minister of 
Defense, in my office earlier this morning with General Cohn. 
This is a very patriotic, impressive man, both of them really, 
but I'm speaking about Minister Wardak here.
    Also, you feel within him, the great sense of pride in the 
Afghan army and their commitment to restore national pride, 
which is really quite impressive; also their profound gratitude 
to the U.S. military and their sense of camaraderie with the 
U.S. military.
    Secretary Gates. I want to just say one thing in that 
regard, Senator Lieberman, that really moves me about Minister 
Wardak. He is genuinely embarrassed and moved that Americans 
are laying down their lives for his people. I have not heard 
another leader in the world be as eloquent on that subject as 
he is, and it's in virtually every meeting I have with him.
    Senator Lieberman. I agree. He spoke of that today with 
obvious sincerity to me, and he said that they'll never be able 
to repay the U.S. for the commitment to their freedom and 
independence, but that he believes that there will be a day in 
the not too distant future when they will, one, repay us by 
being responsible for their own defense to a great degree; and 
second, that they will join us elsewhere in the world in 
peacekeeping or other missions. So we can hope for that.
    Without wanting to dwell too much on the point, the sense 
of camaraderie is unique among all the militaries that are 
there. I think it's something that, without trying to speak 
comparatively, should just make us proud of our own military.
    He said to me, not today but when I was in Afghanistan 
earlier in the year--it's a small, simple, human statement, but 
he said his soldiers tell him that it is only the American 
military that are prepared to share their canteens with the 
Afghan military. That speaks a lot about our military. It means 
a lot to them.
    Let me just talk about this increase in the ANA. Minister 
Wardak said today--and General Cohn kind of backed him--that 
they think that because, one, there are recruits ready to come 
in; two, they've raised the eligibility age, I think from 28 to 
35, among the Afghans; that they can meet this 134,000 goal in 
fact in 2 years, as opposed to 4.
    If that's plausible, can we, through our resources or 
international resources, come up with the money in that 
timeframe to support that 134,000 goal? I presume that the 
sooner we can get them on the ground the better the security 
situation will be.
    Secretary Gates. To the chairman's point, we do have some 
money in the budget for 2009 and in the supplemental for 2009 
for training the ANA, and I think that there is a sufficient 
shared interest in accelerating that process that, as the 
chairman was saying, the costs are at a level that our 
interests would certainly be well served by finding some 
additional money if they can accelerate their growth.
    Senator Lieberman. Good. I can also appreciate very much 
the thought of going to countries around the world who are not 
prepared to send troops or more troops and asking them for 
financial support of the ANA. Am I correct in assuming that you 
are thinking there not just of our NATO allies, but perhaps 
going to allies in Asia and the Middle East for financial 
support for the ANA?
    Secretary Gates. Yes, sir.
    Senator Lieberman. The final question I have, as you know 
better than I, we've had some operational difficulties when 
different member countries of NATO, for instance, have made 
contributions to the training of the Afghan police force, that 
they have tended to want to do the training they want to do as 
opposed to being part of a comprehensive training strategy. I'm 
expressing my hope, and asking you if you share it, that as we 
get other countries to buy into a financial commitment to the 
ANA that we essentially retain control, so that there is at 
least a unity of approach to training and we don't have a 
balkanized situation where every country giving money does what 
it thinks is best to train the Afghan army.
    Secretary Gates. This has been a concern that we have had 
for some time, and it is that these Operational Mentoring and 
Liaison Teams that do a lot of this training arrive in country 
not fully prepared and without any consistency in terms of the 
kind of training they're doing. We encourage the foreign 
sourced omelets, we call them, to go to a training facility 
that we have in Hohenfels, Germany, and go through that 
process, to try and bring greater consistency.
    I would say we've had mixed success in getting them to do 
that. I would say one of the biggest and most urgent of our 
commanders' requirements for additional troops in Afghanistan 
is in fact for trainers, not for fighters. I think that that'll 
be one of the things we work hardest on.
    Senator Lieberman. You will not be surprised to hear that 
General Cohn mentioned that.
    Thank you both very much.
    Thanks, Mr. Chairman; and Senator Sessions, thanks for your 
courtesy.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Sessions.
    Senator Sessions. Thank you. Senator Lieberman, thank you 
for your commitment of time and effort in going to Afghanistan 
and Iraq. I know you've been there, you and Senator Inhofe 
both, many times, and the chairman also.
    There's a little bit of a difference, I think, between what 
we were doing in al-Anbar and maybe what we're talking about in 
Iraq, it seems to me, in terms of the size of the army. The 
forces that volunteered and came forward and we have helped 
financially and militarily to be successful aren't really part 
of the Iraqi official army. Are there potentially such pacts or 
agreements or bonds and cooperative activities that could occur 
in Afghanistan to utilize local young people who don't like the 
Taliban and are willing to help fight them off if they know 
they have some support, but if left alone out in the country 
without being able to contact the Afghan army or the American 
army they feel pretty vulnerable?
    Secretary Gates. Let me answer and then turn to General 
Cartwright. The President's attitude is it was the tribes that 
helped us win in 2002. I think there's a real interest and 
opportunity there that over the last several years perhaps we 
haven't taken full advantage of. So I know that there's an 
interest in figuring out, as I say, if we can do this without 
creating anti-government militias or creating new warlords, 
then absolutely that's the direction I think we need to go, in 
addition to strengthening the national army.
    General Cartwright. That's the vector that we want to be 
on. I think the two cautions are: one, to focus on the local 
security initially with these tribes; and then second is that 
we have to be there and we have to stay there, ``we'' being the 
ISAF or the United States. But we can't come, empower them, and 
then leave and leave them vulnerable to attacks that may 
overpower them. We have to stay with them and get the security 
stable and allow them to become functional for their local 
security. If we leave too quickly, we leave them vulnerable and 
then it is harder to go back because we don't have their 
confidence any more.
    Senator Sessions. Well, we partnered at the beginning in 
2002 with the Northern Alliance, and we didn't train them.
    General Cartwright. No.
    Senator Sessions. Pretty good fighters.
    General Cartwright. But we stayed with them.
    Senator Sessions. We stayed with them. Just for 
perspective, if you recall, how many American troops were on 
the ground partnering with, approximately, the Northern 
Alliance when the Taliban collapsed and were defeated?
    I think it's less than 10,000 or something in that range. 
This was a partnership that worked. It's a different problem 
and I can understand the problem of trying to have a central 
government. But I just think we need to be a little bit more 
modest about how quickly we can establish a central government. 
I have people in Alabama that are not real interested in what 
happens in Washington. There are probably some in Alaska and 
Idaho, too, and other places, probably even Virginia, that are 
not that interested in what happens here. It's not affecting 
their lives. I feel pretty strongly about that.
    Now, with regard to how this country is supposed to be 
managed and the money and aid that we provide to it, Mr. 
Secretary, let's say there's a decision to be made about an 
irrigation system, a water system, a highway system, an 
electric generation system, a garbage disposal system, who is 
making this decision about how the money is allocated? On paper 
at least, who is responsible for making those allocations from 
our side?
    Secretary Gates. Senator, you've put your finger on what I 
think is one of the real weaknesses of the effort in 
Afghanistan. We have 42 countries, hundreds of NGOs, 
universities, and various others, all in effect doing their own 
thing in Afghanistan. From the day I took this job and the 
first NATO meeting I went to, I said we have to do a better job 
of sharing information, of collaborating and working together 
and partnering with the Afghans in terms of these economic 
development and reconstruction projects, and sharing best 
practices--what's working, what's not working.
    My hope had been when the senior U.N. representative Kai 
Eide was appointed, when Secretary Rice and I sat down with him 
here in Washington and talked about what the need was, he 
clearly understood that need. I'm sorry to say that, for a 
variety of reasons, there has not been a significant 
improvement in that kind of coordination and cooperation. If I 
had to identify one area working with the Afghans and where we 
need somebody in the Afghan Government who's competent and 
capable, who could oversee these things from the Afghan side 
and be a partner, and then we could get better coordination on 
the side of the owner countries, then I think the whole process 
would be significantly enhanced.
    But right now, as far as I can tell it's essentially 
everybody doing their own thing.
    Senator Sessions. Well, that's the impression I've gotten. 
Also, I have to tell you I think there's some confusion within 
our government. I suppose, like Iraq, on paper at least the 
State Department has the primary responsibility for the 
reconstruction and economic development and the PRTs; is that 
right?
    General Cartwright. Yes, sir.
    Senator Sessions. But in truth, the American military has 
far more persons there and are far more able to take action 
because of their military training and equipment and arms, than 
the State Department is. Are you satisfied that that 
relationship is strong enough?
    Secretary Gates. I think the relationship is fine. I think 
there is the difference in Iraq in that we're really not 
operating in cities and big towns and using CERP in the same 
way in terms of projects, as best I understand it, just because 
of the size of the country. I think we are less engaged in 
those kinds of projects in Afghanistan than we have been in 
Iraq.
    Senator Sessions. Well, just maintaining coordination and a 
cohesive plan is very difficult and the military is so 
important and integral to this effort. Yet on paper at least, 
the State Department has the responsibility. They've made some 
mistakes. I don't like this idea of saying you want a secular 
government. I mean, that's an affront to a religious people, to 
say that. We've been saying we want to create secular 
government. What does that mean? To the average person, they 
hear that as eliminate God from their community and that's not 
what they want. So we need to be more sophisticated, I think, 
and sensitive to other societies that have different traditions 
maybe than we do. I hope that our State Department people are 
as engaged and committed as the men and women in the Defense 
Department.
    Thank you.
    Chairman Levin. Thank you, Senator Sessions.
    Just a couple more questions, first, on the Afghan police. 
General, I think you indicated that it's important that we 
bring up the police or that the police be brought up to manage 
the border better. I'm just wondering, why is that not also the 
responsibility of the Afghan army?
    General Cartwright. The Afghan army has a role there, but 
it is predominantly the police that patrol that area. We have 
an objective right now to increase over the next year by 52 
companies the police force that manages the border and to 
partner with them and give them the intelligence to allow them 
to do that. But just in their form of government, they are the 
predominant force along the border.
    Chairman Levin. Are they as motivated as the army?
    General Cartwright. No.
    Chairman Levin. I raised this issue when I was in 
Afghanistan and urged them--the Afghan army and the Afghan 
Government--to consider using the army as border control. I 
mean, if the police aren't as motivated, the biggest problem we 
have in Afghanistan, and you said it and we noticed it, is that 
border. So you have to use your stronger forces, it seems to 
me, at that border to go after the people who are penetrating 
that border, in some places with great ease, by the way.
    Have we suggested to the Afghan Government that they 
consider using the army there?
    Secretary Gates. I think the tack is, one, the army is 
engaged with us along the border, but we don't want to tie them 
down on the border. Given their size, we want them to have the 
ability to maneuver. Two, try to bring to the Afghan border 
police the motivation and the skills necessary to do that job, 
because it is fundamentally a different kind of force. It is 
not a maneuver force.
    Chairman Levin. But you say they're not as motivated. 
That's troubling. There's not the same fighting spirit among 
the police as there are among the army?
    General Cartwright. The incentives, because of traffic 
across the border, historically have probably not been as pure 
as the army's. We have to work our way through that. I think 
that's a challenge that's in front of us. It's a cultural issue 
as well as a technical issue.
    Chairman Levin. Just going back for 1 last minute to the 
assessment of the reduction of violence in Iraq, obviously the 
surge has led to a significant reduction, for which we're all 
grateful. The question of course is whether the purpose of the 
surge, which was stated to be a political reconciliation, has 
been achieved. We have a long way to go in terms of achieving 
the surge's purpose.
    However, my question is something for you, Mr. Secretary. 
You've indicated that political reconciliation is absolutely 
critical to Iraq's success. I think those were your recent 
words. Can you tell us why you believe that? If you do believe 
that, as you've indicated, why is it that when the October 1 
election date was not met by the Iraqis--they haven't passed 
the legislation--is there no apparent comment from this 
administration to put some pressure on the Iraqis to keep those 
commitments which are so critically important?
    Secretary Gates. I don't know about public comments, but 
there certainly has been ongoing pressure to get the elections 
law passed and to try to make sure that the elections took 
place before the end of this year.
    I think that the reconciliation is essential, in part 
because these are elements of a country that were always held 
together by force and that were used against each other, where 
the Sunnis dominated both the Kurds and the Shia, and there's a 
long history there and it's an ugly one. The Shia have always 
had a strong relationship with their brethren across the border 
in Iran, from a religious standpoint, even though they fought 
each other for 8 years. The Kurds, to the extent they could get 
away with it, essentially wanted to be independent of everybody 
in the country and kind of run their own affairs.
    So getting these three principal groups to work together 
and to share power and to have some measure of trust in each 
other is essential for Iraq's future, and I would tell you that 
I think that making progress on that has taken longer and has 
been more difficult than we anticipated. I would add 
gratuitously, like a lot of other things.
    Chairman Levin. You say we put pressure on them when they 
don't meet their own deadlines for the political 
reconciliation, which is essential to ending this conflict. 
They said October 1. They didn't pass the law to make those 
provincial elections happen. They keep dawdling and dawdling 
and dawdling on the elections law, which you've testified again 
here today are critically important to these kind of political 
reconciliations.
    How do we put pressure on them? Where is the pressure?
    Secretary Gates. The challenge that we face in Iraq is that 
we have politics in the country and one of the issues that has 
held this up is the status of Kirkuk.
    Chairman Levin. Well, of course, but where's the pressure? 
You've said we put pressure on them privately. Where? How?
    Secretary Gates. We tell them that this is something they 
need to get done.
    Chairman Levin. Or?
    Secretary Gates. We've had this discussion before.
    Chairman Levin. I know, but it's important that this 
discussion continue. The Iraqis get the impression, that we're 
still open-ended, and that we're just going to be down to a 
level of troops in February which is probably a little bit 
larger than the level of troops we had before the surge.
    Secretary Gates. Mr. Chairman, I do not think the Iraqis 
think this is an open-ended commitment.
    Chairman Levin. What have we told them?
    Secretary Gates. As much as anything, it's what they have 
told us.
    Chairman Levin. I'm not talking about what they want. I'm 
talking about what we're going to do.
    Secretary Gates. I think that it's inevitable that our 
force sizes are coming down. They know that.
    Chairman Levin. Finally, would you say this, that one of 
the reasons for the reduction in violence in Iraq is that we 
changed our tactics, not just the increased number of troops, 
but that we changed our tactics, which put more of our troops 
out in the communities in joint combat outposts--living where 
they work is the way some of our commanders have put it. We've 
stationed our troops there. Would you agree that was one of the 
factors in the improved security in Iraq? General, do you?
    General Cartwright. Yes, I agree.
    Chairman Levin. Mr. Secretary, would you agree with that?
    Secretary Gates. Yes.
    Chairman Levin. I am concluded. My dear friend, do you have 
additional questions?
    Senator Warner. Thank you, Mr. Chairman. I would simply 
conclude by, one, putting into this record today the letter 
that you and I jointly sent to Secretary Gates on August 1st, 
and that regards to Iraqi dollars that are alleged to be here 
in the United States and how they can be put into the programs 
that I think you've enunciated. I believe today you've covered 
this subject very carefully, and I'm sorry I had to be absent 
for a few minutes. But I think our letter together with your 
response should be put in this record, because this is a 
question that's repeatedly asked of the chairman and me from 
our colleagues as we move around, and indeed when we visit our 
constituents. They find it almost incomprehensible.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Warner. Separately, I'm putting in the record an 
amendment which today I discussed with you. We were not able to 
get it in the bill, but it directs your attention to the 
substantial military construction part of our bill and the 
amount of funds that the administration is requesting and I 
think if our bill gets through will be authorized in new 
construction funds in Iraq. Specifically, we had in mind to put 
in a framework whereby each of those items could be reexamined 
by you to determine if in fact U.S. dollars are needed and 
whether or not Iraqi dollars can be expended, because after 
these many years that we've been in this country--and all of us 
have visited on a number of occasions on our oversight trips--
the amount of construction that we have put in refurbishment, 
is enormous. As we drawdown, it's difficult to say to our 
colleagues we need to continue to build more over and above 
what we have in place now.
    So we thank you, Mr. Secretary, for appearing here today; 
and I think we've had a full hearing, Mr. Chairman.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Levin. Senator Warner, in terms of that 
amendment's language, I wonder if we could just ask the 
Secretary, not to respond now, but whether he would take a look 
at that proposed structure and, even though it's not going to 
be part of our bill for the reasons that Secretary Warner 
discussed, whether you would consider following that kind of 
structure. I'm not asking you to commit to that, but----
    Senator Warner. No, but I think I'd appreciate that.
    I had tried to get it here and I couldn't get it here this 
morning, because it follows the Secretary's response about the 
CERP program. You've drawn it down to 200,000 you're going to 
look at each one; is that correct?
    Secretary Gates. $2 million for me, $500,000 at lower 
levels.
    Senator Warner. Correct. Well, it's the same type of 
concept applying to CERP that we apply to the military 
construction budget.
    Chairman Levin. If you could just take a look at that, Mr. 
Secretary, we'd appreciate it.
    Senator Warner. We'd appreciate that.
    [The information referred to follows:]

    I understand and agree with the intent of Senator Warner's proposed 
amendment: however, we are already implementing the intent of the draft 
language. The U.S. military is not seeking permanent bases in Iraq. 
Restrictions on the use of military construction funds for permanent 
facilities in Iraq already exist. A determination that no reasonable 
alternative facility or installation will satisfy requirements and 
confirmation that the project is for use by U.S. forces in Iraq are 
required prior to initialing all military construction projects in 
Iraq. Certification of urgent need is already required for operation 
and maintenance-funded construction projects.
    As always, we will continue to look for opportunities to increase 
Government of Iraq (GOI) spending on projects in Iraq. Recent examples 
include handing over the costs of police infrastructure, Iraqi force 
generation, and the Sons of Iraq program. In addition, revised guidance 
for the Commanders' Emergency Response Program will require the 
Commander, Multi-National Corps-Iraq to certify that projects greater 
than $750,000 are linked to a cost-sharing arrangement with the GOI 
where feasible. However, it is important that U.S. commanders retain 
the ability to satisfy operations support requirements and to fully 
fund projects that are in the U.S. interest but may not match GOI 
priorities.

    Chairman Levin. Because many members, as Senator Warner has 
pointed out, of this committee have done more than just express 
interest. They've offered amendments. We've adopted amendments 
along this line.
    I think the only disappointing note that I felt or saw in 
your face was when Senator Lieberman said that this might not 
be your last visit to this committee. I'm not sure if he knows 
something that we don't know. We do expect that this will be 
the last one unless something unusual happens, and I think we 
all feel very strongly that you have really made a major 
contribution to the relationship between Congress and this 
administration in terms of openness and in terms of confidence. 
You've represented and done a wonderful job in terms of your 
relationship with our troops. General, I know you have for a 
long time as well. We just want to congratulate you, Secretary 
Gates, for that service. Thank you. For how many years now? You 
say you were sworn in 40----
    Secretary Gates. 42 years ago.
    Chairman Levin. 42 years ago. You don't have a clock 
running backwards as well as forward that you carry around with 
you?
    Secretary Gates. Let the record show 118 days.
    Senator Warner. Was that when you went into the Air Force?
    Secretary Gates. When I was first recruited by CIA.
    Senator Warner. Prior to then you were in public service?
    Secretary Gates. The Air Force came later.
    Senator Warner. Oh, it came later.
    Chairman Levin. We congratulate you on your long service. 
There will be other ways in which you're going to be asked to 
serve, I'm sure. You don't have to react to that.
    Senator Warner. One further question. In my opening 
comments I addressed my continuous concern, as you have the 
same level of concern, about the narcotics in Afghanistan. That 
is simply undermining much of the progress that the Afghan 
Government is trying to make and it does provide a source for 
dollars to be utilized by the enemy, diverse as they are, 
against our forces.
    Just a brief response of what you're working on there. I 
know you've tried hard to cut that back.
    Secretary Gates. We are trying to get the alliance, to get 
ISAF, to get the North Atlantic Council to agree, to get our 
allies to agree, to make counternarcotics, particularly in 
terms of going after the drug labs and kingpins, a part of the 
mission of ISAF. Right now it's not, and we're running into 
some flack and I'm not sure whether we'll be successful.
    Governance makes a huge difference in Afghanistan, the 
local governance. The reality is that in all but seven 
provinces, there is essentially no poppy growing or it's at 
very, very low levels. That's the good news, and the other 
piece of good news is the U.N. says that the number of hectares 
that are under poppy cultivation are down about 19 percent year 
on year. That's another piece of good news.
    The bad news is that the poppy growing in the seven 
provinces where it's still going on more than meets world 
demand.
    Senator Warner. Absolutely, that's the problem. Well, 
gentlemen, because I know, General, this has to bother you and 
those particularly in the chain of command directing our 
forces, because you're asking us to go into harm's way knowing 
that some of the weapons used against them are derivative of 
this poppy trade. That's just something that the American 
people cannot comprehend and will not accept.
    Thank you, Mr. Chairman.
    Chairman Levin. Mr. Secretary, you put your finger right on 
it. It's not part of our mission, getting rid of particularly 
these labs. They know where they're at. There's no reason it 
shouldn't be part of our mission except for local opposition in 
Afghanistan. When I asked President Karzai about this issue, he 
said just tell us where they are; we'll get rid of them. Well, 
I'm afraid I'm skeptical about that statement. I have a lot of 
respect in many ways for President Karzai, but I'm very 
skeptical that he says just tell us where they are and we'll go 
and get them, when we know where they are, but it's not part of 
our mission to destroy them. I'm talking about the labs. I'm 
not talking about spraying crops. We're just talking about labs 
where this process is centralized. I agree with you, it's long 
overdue that that is part of our mission.
    We thank you both for this presentation this morning and 
for your responses. Secretary Gates, we wish you again all the 
best.
    Secretary Gates. Thank you, Mr. Chairman.
    Chairman Levin. We'll stand adjourned.
    [Questions for the record with answers supplied follow:]

                Question Submitted by Senator Mark Pryor

                         MAJOR WEAPONS SYSTEMS

    1. Senator Pryor. Secretary Gates, on June 3, we had a full 
committee hearing on Department of Defense (DOD) acquisitions of major 
weapons systems. It was reported by the Government Accountability 
Office that the current portfolio of 95 Major Defense Acquisition 
Programs (MDAPs) has experienced a cost growth of $295 billion. What 
plans or strategy have you implemented within the DOD that responds to 
the challenges of noted cost and schedule growth in budgetary 
acquisition levels caused by unrealistic cost and schedule estimates; 
unreasonable performance expectations; use of immature technologies; 
changes to program requirements; and reductions in production 
quantities and funding levels?
    Secretary Gates. The Department has implemented numerous 
initiatives focused on controlling cost and schedule growth. They are 
captured in the Under Secretary of Defense for Acquisition, Technology, 
and Logistics (USD(AT&L)) Strategic Goals Implementation Plan. 
Strategic Thrust 2 of that plan describes how the Department will 
responsibly spend every single tax dollar. The USD(AT&L) tracks and 
monitors those initiatives, including the following:

         Competitive Prototyping: Successful implementation of 
        competitive prototyping will inform us on the realism of 
        requirements, mature technology before final development 
        phases, and significantly improve our cost estimates.
         Technology Readiness Assessments (TRA): TRAs are intended to 
        ensure technology is appropriately mature at each sequential 
        phase of development and that the Department budgets adequate 
        funds for necessary technology maturation.
         Incentive Policies: Careful, aggressive use of profit and 
        contract incentives is critical to the program manager's 
        efforts to control costs, incentivize performance, and ensure 
        disciplined behavior by industry.
         Enhanced Acquisition Decision Memorandum (ADM): ADMs now 
        specify the requirements document and its date and prohibit 
        changes to program requirements. The ADMs also require full 
        program funding.
         Configuration Steering Boards (CSB): CSBs will review 
        requirements and technical configuration changes, which have 
        the potential to result in significant increases to program 
        cost and schedule.
         Independent Cost Estimates: We intend to ensure all programs 
        are properly priced and budgeted by requiring programs to 
        develop independent cost estimates prior to program initiation. 
        Independent cost estimates are to be fully considered during 
        any MDAP's milestone review and realistic cost estimates and 
        schedule projections are to be adopted.
         Materiel Development Decision (MDD): The Department intends to 
        establish the MDD as the formal entry point into the 
        acquisition process. The MDD will assess potential materiel 
        solutions and is mandatory for all programs.
         Life Cycle Management (LCM): By integrating LCM principles 
        into the acquisition and sustainment processes, we will 
        increase system readiness while lowering total life cycle 
        costs.

    For program managers, there is a renewed emphasis on accountability 
and tenure agreements so that program managers will remain with their 
programs longer. Signed Program Management Agreements (PMAs) establish 
a ``contract'' between a program manager and acquisition and 
requirements/resource officials setting expectations for cost, 
schedule, and performance. The PMA must be reaccomplished if conditions 
change.
    The Department is engaging with industry continuously. That 
dialogue occurs not only on a program-by-program basis where industry 
holds a contract, but we also communicate with industrial associations 
that involve many contractors. For example, we send liaison 
representatives to the National Defense Industrial Association's 
Industrial Committee on Program Management (ICPM). The ICPM is working 
on topics of interest to both industry and government, for example the 
use of new Program Startup Workshops and improved application of Earned 
Value Management Systems.
    In addition, the USD(AT&L) writes weekly AT&L notes to the broadest 
possible DOD acquisition team audience. These notes convey principles 
and lessons seeking to change the acquisition community culture and 
develop better practices. These efforts to influence the broadest 
possible audience in the DOD acquisition community represent critical 
efforts to produce lasting, enduring improvements.
    These polices will be institutionalized in the forthcoming update 
to DOD Instruction 5000.02. It will take time to show the impact of 
these policies, but lasting change starts with good common-sense 
policies that are measurable, enforceable, and widely accepted.
                                 ______
                                 
              Questions Submitted by Senator Mel Martinez

                         CONTRACTOR LIABILITIES

    2. Senator Martinez. Secretary Gates, Lt. Col. Dominic ``Rocky'' 
Baragona died on May 19, 2003, in a tractor trailer accident in Iraq 
near the Kuwaiti border. This accident was all the more tragic because 
Lieutenant Colonel Baragona had fought in the invasion of Iraq, 
survived while serving honorably, and was returning home to his family. 
Lieutenant Colonel Baragona was an outstanding officer, a West Point 
graduate, and his loss will be keenly felt both by the Army and his 
family. His parents are my constituents and Rocky's residence was my 
State, Florida.
    The tractor trailer truck, owned by Kuwait & Gulf Link Transport 
Company (KGL), a Kuwaiti multinational firm, careened across a highway 
and struck Rocky's Humvee, killing him.
    KGL is a large Kuwaiti company, organized under Kuwaiti law and 
doing business across the Middle East. Its business includes the 
execution of substantial contracts with the Army. After Lieutenant 
Colonel Baragona's death, the Army conducted an AR15-6 and determined 
in the accident investigation report that KGL's negligence caused the 
traffic accident that killed Lieutenant Colonel Baragona. The Army 
required that KGL certify that it had purchased third-party liability 
insurance for just this sort of accident.
    Please explain how the Army assists families of U.S. service 
personnel access to the insurance purchased for their benefit and 
please fully explain how the Army otherwise assists family members of 
service personnel killed by contractors.
    Secretary Gates. The Army assigns a trained Casualty Assistance 
Officer (CAO) to the surviving family of every soldier who dies while 
on active duty. The CAOs helps the family with all aspects of casualty 
assistance, to include applications for all Government benefits, 
settling claims for funeral expenses and the Servicemembers' Group Life 
Insurance, obtaining copies of all DOD-conducted death investigations, 
and coordinating for any specialized assistance requirements such as 
bereavement support, legal assistance, or financial counseling.
    The National Defense Authorization Act of 2006 requires that the 
Services provide military legal assistance to surviving families who 
need help with issues related to settling the decedent's estate, such 
as probating an estate, drafting new wills, transference of property, 
et cetera. However, this assistance is limited to basic matters of the 
nature described above. Military attorneys cannot represent surviving 
families with matters that must be adjudicated by the civil court 
system, such as wrongful death suits or tort actions. When surviving 
families have need for the services of a civilian attorney, the 
military legal assistance office can assist the family in locating a 
qualified civilian attorney, who often may agree to work pro bono or at 
a reduced rate for military families.

    3. Senator Martinez. Secretary Gates, in Baragona v. KGL the court 
found that the Kuwaiti company should pay Rocky's family nearly $5 
million, but now KGL has appeared in court to argue that the court does 
not have jurisdiction over KGL because it is a Kuwaiti company.
    Contractors, including foreign contractors, play an important part 
in the success of the U.S. military but it's important that the 
contractors act responsibly and conform to the contracting requirements 
of the DOD, which has extensive regulations, the Defense Federal 
Acquisition Regulation Supplement (DFARS), designed to promote 
contractor accountability and DOD policy interests. For example, the 
DFARS requires that both foreign and domestic contractors carry 
insurance for accidental death or injury to third parties in order to 
protect American service personnel, third parties, and the United 
States Government.
    If the Army requires the purchase of this insurance by all of its 
trucking contractors, foreign and domestic, but the foreign contractors 
are able to assert that they shouldn't have to compensate accidental 
death or injury claims because of their lack of presence in the United 
States, what is the point of requiring the purchase of the insurance?
    Secretary Gates. Contractors that use automobiles (or trucks) in 
the performance of their contracts are required by the Federal 
Acquisition Regulation (FAR), Subsection 28.307-2, Liability, to have 
automobile liability insurance. The point of requiring the contractor 
to purchase this type of insurance is to protect the interests of the 
United States Government. The requirement for liability insurance 
applies to contractor performance in the United States and overseas. 
KGL's question about the jurisdiction of the United States District 
Court for the Northern District of Georgia Atlanta Division does not 
question the use of liability insurance; it only questions the 
jurisdiction of the court. KGL's assertion about jurisdiction does not 
affect the use of liability insurance in Federal Government contracts.

    4. Senator Martinez. Secretary Gates, does this not defeat the 
important DOD policy considerations at interest in the DFARS provisions 
that require insurance?
    Secretary Gates. Contractors under contract with the DOD are 
required to carry the appropriate insurance, as specified in the 
contract. The requirement for liability insurance applies to contractor 
performance in the United States and overseas. In the case Baragona v. 
KGL, KGL does not question the inclusion of insurance but the 
jurisdiction of the United States District Court for the Northern 
District of Georgia, Atlanta Division. KGL's assertions about 
jurisdiction do not affect the use of liability insurance provisions in 
Federal Government contracts.

    5. Senator Martinez. Secretary Gates, shouldn't the assertion of 
this defense affect the ability of the contractor to receive future 
contracts from the United States Government as it involves the 
responsibility of the contractor?
    Secretary Gates. Contracts shall be awarded to responsible 
prospective contractors only, pursuant to FAR 9.103. To be determined 
responsible, a contractor must meet various criteria including a 
satisfactory performance record and a satisfactory record of integrity. 
In addition, if a contracting officer becomes aware of a situation that 
requires investigation in accordance with FAR 9.4, the contracting 
officer must refer the matter to a suspending and debarring official 
for that official's consideration. Possible causes for debarment and 
suspension are listed in FAR 9.4 and include the contractor's 
commission of an offense indicating a lack of business integrity or 
honesty that would seriously and directly affect the present 
responsibility of the contractor.

    6. Senator Martinez. Secretary Gates, in the case of an accidental 
death how does a family find out if a contractor has insurance, as is 
required?
    Secretary Gates. Any interested party may obtain a copy of the 
contract through the Freedom of Information Act to determine what type 
of insurance is required under the contract. In addition, when a proper 
request is filed in a private litigation such as Baragona v. KGL, the 
government will make available nonprivileged documents and testimony to 
the parties.

    7. Senator Martinez. Secretary Gates, is the Army able to 
facilitate a resolution in this kind of case?
    Secretary Gates. This case (Baragona v. KGL) is a tort action 
brought by the parents of Lieutenant Colonel Dominic F. Baragona 
seeking damages arising from the death of their son, who was killed in 
an automobile accident in Iraq while serving as an officer in the 
United States Army. The defendants are KGL and Mahmoud Muhammed Hessain 
Serour. The accident occurred when the Army Humvee in which Lieutenant 
General Baragona was a passenger collided with a truck owned by KGL and 
driven by Mr. Serour, a KGL employee. The United States Army (Army) is 
not a party to this court action; therefore, we must remain neutral. 
The Army's role in private litigation is to make available 
nonprivileged documents and testimony to the parties when they file a 
proper request. Both parties to this litigation have made such requests 
and the Army has provided documents in accordance with law and 
regulation.

    8. Senator Martinez. Secretary Gates, a Status of Forces Agreement 
(SOFA) should protect the families of service personnel killed or 
injured by negligence just as the SOFA between the United States and 
the Federal Republic of Germany protected service families posted in 
Germany during the Cold War. There have been cases of accidental death 
or injury to U.S. personnel that have left the families with nowhere to 
turn because the accident happened in Iraq and was caused by foreign 
DOD contractors that claim that a U.S. court has no jurisdiction over 
them.
    In Baragona v. KGL the court found that KGL should pay Lieutenant 
Colonel Baragona's family nearly $5 million but now KGL has appeared in 
court to argue that the court does not have jurisdiction over KGL 
because it is a Kuwaiti company.
    In Lessin v. First Kuwait Trading and Contracting Company a U.S. 
serviceman who was severely injured by a Kuwaiti subcontractor sued the 
Kuwaiti company and the prime contractor, which was KBR. KBR said 
contractually the liability was on the Kuwaiti company, which then 
argued it couldn't be sued because it was located in Kuwait and the 
case was dismissed. The serviceman was left out in the cold.
    Is it contemplated that the U.S.-Iraq SOFA now being negotiated 
will protect U.S. servicemembers' families in cases of accidental death 
or injury caused by traffic accidents involving foreign contractors 
once the SOFA is implemented? If so, please explain how the SOFA will 
protect them.
    Secretary Gates. No. The current draft of the SOFA does not address 
matters relating to accidental death or injury caused by traffic 
accidents involving non-U.S. DOD contractors.

    9. Senator Martinez. Secretary Gates, how does the Army plan to 
address those servicemembers killed or injured before the 
implementation of the SOFA?
    Secretary Gates. Such matters are beyond the scope of the SOFA. 
Where servicemembers are killed or injured in Iraq by non-U.S. DOD 
contractors, the servicemember or his/her family is free to pursue 
available remedies in the civil courts.

    [Whereupon, at 12:20 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
